<html>
<title> - EXAMINING THE EFFECT OF THE BORDER WALL ON PRIVATE AND TRIBAL LANDOWNERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


     EXAMINING THE EFFECT OF THE BORDER WALL ON PRIVATE AND TRIBAL 
                               LANDOWNERS

=======================================================================

                                 HEARING

                               BEFORE THE
                               
                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                           Serial No. 116-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-452 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                               Witnesses

Mr. Reynaldo Anzaldua, Private Citizen:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Ms. Nayda Alvarez, Private Citizen:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Hon. Ned Norris, Jr., Chairman, The Tohono O'odham Nation:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Jim Chilton, Private Citizen:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24

                             For the Record

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Letter From Miscellaneous Fath-Based Organizations.............    46
  Statement of Vicki B. Gaubeca, Director, and Jennifer Johnson, 
    Border Policy Advisor, Southern Border Communities Coalition.    48

 
     EXAMINING THE EFFECT OF THE BORDER WALL ON PRIVATE AND TRIBAL 
                               LANDOWNERS

                              ----------                              


                      Thursday, February 27, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:06 a.m., in 
Room 310, Cannon House Office Building, Hon. Kathleen M. Rice 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Payne, Correa, Torres Small, 
Thompson (ex officio), Higgins, Lesko, Joyce, and Guest.
    Miss Rice. The Subcommittee on Border Security, Facility, 
and Operations will come to order.
    The subcommittee is meeting today to receive testimony on 
examining the effect of the border wall on private and Tribal 
landowners. Without objection, the Chair is authorized to 
declare the subcommittee in recess at any point.
    I want to thank you all for joining us this morning, and 
thank you to our witnesses especially. Your unique perspectives 
on the Southern Border are critical to our understanding of 
this issue, and we appreciate you sharing your important 
insight with us.
    Over the past year, this subcommittee has sought to bring 
attention to the administration's misguided and dangerous 
border wall policy. We know the construction of a border wall 
will not stop the influx of drugs into our country, will be an 
unnecessary cost to taxpayers, and as we will discuss today, 
will have an irreversible impact on the rights of U.S. citizens 
and Native Americans.
    For those of us who do not live in Texas, New Mexico, 
Arizona, or California, it can be easy to forget that. The 
policy decisions we make in Washington have a tremendous impact 
on the everyday lives of those who live along the Southern 
Border. Two-thirds of the land along the Southern Border is 
owned by private citizens or the border States. In order to 
construct barriers across this land, the administration has 
used eminent domain, a process by which the Government can 
forcibly seize privately-owned land for public use in exchange 
for compensation. Often this compensation is minimal, and 
landowners are left to fight the Government in court for years. 
Under this administration, eminent domain will be used at a 
historically high level to strip landowners of their property 
and, in many cases, cause damage to their livelihoods.
    In addition to this land seizure, the administration has 
doubled down on its use of the Department of Homeland 
Security's waiver authority, waiving important environmental 
and preservation laws for border wall construction. No 
Secretary, no matter the purpose or intent, should have the 
ability to waive every law in their entirety with the stroke of 
a pen.
    In the past 3 years, the Trump administration has used this 
waiver authority 16 times to ignore laws designed to protect 
the environmental and cultural integrity of these communities. 
For comparison, the Bush administration, George W. Bush 
administration, used this waiver authority only 5 times over 
the course of his entire Presidency. But this should not come 
as a surprise. President Trump has shown that he will stop at 
nothing to deliver on his campaign promise to build a wall. The 
Trump administration does not listen to the experts, they don't 
pay attention to border residents or local officials, and they 
ignore the consequences that come along with abusing the waiver 
authority.
    The administration has waived critical public health and 
safety laws, including the Endangered Species Act, the National 
Environmental Policy Act, the Safe Drinking Water Act, and the 
Clean Water Act, for wall construction. These laws ensure that 
border communities have the same rights and protections as any 
other community in the United States.
    The Tohono O'odham Nation, whose lands across the Southern 
Border, have faced particularly harmful consequences as a 
result of these laws being waived. The administration's 
decision to repeatedly use this waiver authority puts the lives 
of the members of the nation at risk, destroys habitats for 
numerous at-risk species, and undermines trust in our 
Government.
    Earlier this Congress, this committee recognized the damage 
that the administration could do with its use of waivers and 
responded by passing H.R. 1232, the Rescinding DHS' Waiver 
Authority for Border Wall Act, which would strike the law that 
granted the Secretary of Homeland Security with this unchecked 
waiver authority.
    This bill, should it become law, would not prohibit DHS 
from constructing or repairing border barriers. It would simply 
require the Department to follow any and all applicable local, 
State, and Federal laws before beginning construction. The 
reckless waiving of crucial Federal laws puts the people who 
live along our Southern Border at unnecessary risk and does not 
enhance our border security.
    The witnesses who have joined us today will speak to this 
issue from personal experience, and I am proud today's hearing 
will help provide a platform for them to make their voices 
heard.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from Louisiana, Mr. Higgins, for an opening 
statement.
    [The statement of Chairwoman Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                           February 27, 2020
    To our witnesses, your unique perspectives on the Southern Border 
are critical to our understanding of this issue, and we appreciate you 
sharing your important insight with us. Over the past year, this 
subcommittee has sought to bring attention to the administration's 
misguided and dangerous border wall policy.
    We know the construction of a border wall will not stop the influx 
of drugs into our country, will be an unnecessary cost to taxpayers, 
and--as we will discuss today--will have an irreversible impact on the 
rights of U.S. citizens and Native Americans.
    For those of us who do not live in Texas, New Mexico, Arizona, or 
California, it can be easy to forget that the policy decisions we make 
in Washington have a tremendous impact on the everyday lives of those 
who live along the Southern Border.
    Two-thirds of the land along the Southern Border is owned by 
private citizens or the border States. In order to construct barriers 
across this land, the administration has used eminent domain, a process 
by which the Government can forcibly seize privately-owned land for 
public use in exchange for compensation. Often, this compensation is 
minimal, and landowners are left to fight the Government in court for 
years. And under this administration, eminent domain will be used at a 
historically high level to strip landowners of their property, and in 
many cases, cause damage to their livelihoods.
    In addition to this land seizure, the administration has doubled 
down on its use of the Department of Homeland Security's waiver 
authority--waiving important environmental and preservation laws--for 
border wall construction. No Secretary, no matter the purpose or 
intent, should have the ability to waive every law ``in their 
entirety'' with the stroke of a pen.
    In the past 3 years, the Trump administration has used this waiver 
authority 16 times to ignore laws designed to protect the environmental 
and cultural integrity of communities. For comparison, the Bush 
administration used this waiver authority only 5 times over the course 
of his entire presidency.
    But this should not come as a surprise. President Trump has shown 
that he will stop at nothing to deliver on his campaign promise to 
build a wall. The Trump administration does not listen to the experts, 
they don't pay attention to border residents or local officials, and 
they ignore the consequences that come along with abusing the waiver 
authority.
    The administration has waived critical public health and safety 
laws including the Endangered Species Act, the National Environmental 
Policy Act, the Safe Drinking Water Act, and the Clean Water Act for 
wall construction. These laws ensure that border communities have the 
same rights and protections as any other community in the United 
States.
    The Tohono O'odham Nation, whose lands cross the Southern Border, 
have faced particularly harmful consequences as a result of these laws 
being waived. The administration's decision to repeatedly use this 
waiver authority puts the lives of the Members of the Nation at risk, 
destroys habitats for numerous at-risk species, and undermines trust in 
our Government.
    Earlier this Congress, this committee recognized the damage that 
the administration could do with its use of waivers and responded by 
passing my bill, H.R. 1232, the ``Rescinding DHS' Waiver Authority for 
Border Wall Act,'' which would strike the law that granted the 
Secretary of Homeland Security with this unchecked waiver authority.
    This bill, should it become law, would not prohibit DHS from 
constructing or repairing border barriers--it would simply require the 
Department to follow any and all applicable local, State, and Federal 
laws before beginning construction. The reckless waiving of crucial 
Federal laws puts the people who live along our Southern Border at 
unnecessary risk and does not enhance our border security.
    The witnesses who have joined us today will speak to this issue 
from personal experience, and I am proud today's hearing will help 
provide a platform for them to make their voices heard.

    Mr. Higgins. Thank you, Madam Chair.
    I thank our witnesses who traveled from the border to be 
here today to provide an on-the-ground perspective. It is very 
important, this narrative across the country, and we should 
hear from Americans that know what it is to live on the border.
    First, I would like to point out the long history of 
bipartisan Congressional interest in securing the border using 
enhanced physical barriers such as fencing, as it has evolved 
through the years, innovative technologies as they have 
emerged, access roads and lighting, and more boots on the 
ground. That is what we refer to in totality as a wall system 
or a barrier system today.
    The passage of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 authorized the construction of 
border barriers for the first time in statute and gave the 
Federal Government the authority to waive certain environmental 
laws. Madam Speaker Pelosi and many of my colleagues across the 
aisle, the Democratic Party, some on this committee, voted for 
that bill. This waiver authority was a deliberate act by 
Congress to avoid endless years of litigation that would make 
construction impossible.
    For example, in the '90s when this authority was being 
considered, construction of a wall in a section of California 
that was referred to as Smuggler's Gulch, a known drug-
trafficking route, was delayed by environmental studies 
regarding the access of birds crossing the border. Meanwhile, 
the cartels were driving vehicles loaded with drugs across the 
border into American communities.
    Since fencing construction began in the '90s, enhanced 
physical barriers have forced cartels to adapt their smuggling 
routes to areas along the border without infrastructure, 
through ports of entry, and through tunnels. The wall system 
makes it more difficult to conduct illegal crossings, to 
organize those crossings, and, of course, it gives border 
enforcement agents additional response time.
    In 2005, Congress expanded the waiver authority to include 
all laws the Secretary determines necessary to ensure 
expeditious construction of barriers and roads. This was in 
2005. Madam Speaker Pelosi and many of my colleagues across the 
aisle, including on this committee, voted for that bill as 
well.
    The Secure Fence Act of 2006 directed the Department of 
Homeland Security to achieve and maintain operational control 
of the international land borders of the United States by 
preventing all unlawful entries using physical barriers, 
technology, access roads, and personnel. That bill received 
positive votes, yes votes, from Senator Schumer and then-
Senators Obama, Biden, and Clinton.
    Border Patrol analysis and plans across Republican and 
Democrat administrations have indicated that enhanced physical 
barriers are an effective solution, 21st Century technology-
enhanced physical barriers. For years now, Washington has 
heeded the request of our boots on the ground, and yet in the 
last 3 years, we have taken a different path in Washington, DC.
    I was encouraged recently to see the Department use its 
waiver authority this month to reduce the length of time 
between awarding construction of prequalified contracts using 
vetted companies already building other sections of the 
enhanced physical barrier system. Some of these projects have 
already come in under budget, and the Army Corps of Engineers 
has told committee staff that these projects include small 
businesses.
    Prior to 1992, parts of the San Diego Border Patrol Sector 
were not patrollable and essentially ceded to the cartels 
because of access. After a wall was built in San Diego in 1992, 
illegal traffic dropped 92 percent. In 1993, El Paso saw a 72 
percent drop in illegal traffic in 1 year alone. Since Tucson's 
wall went up in 2000, there was a 90 percent drop in illegal 
traffic. Finally, in Yuma, since 2005, a 95 percent drop in 
illegal traffic was realized once enhanced physical barriers 
were installed.
    These facts speak for themselves. If you install enhanced 
physical barriers, 21st Century smart physical barriers, crime 
and criminal crossings will fall. Walls work. Walls don't mean 
don't come in. Walls mean come in through the gate.
    The continued exploitation of our Southwest Border is an 
assault on our National security and our Nation's sovereignty, 
and enriches criminal organizations who profit from trafficking 
drugs and people, including children, and incredibly deadly 
opioids. In fiscal year 2019, CBP seized nearly 750,000 pounds 
of drugs at the border. That includes approximately 2,135 
pounds of fentanyl, which represents a lethal dose for more 
people than the entire population of the United States.
    Mr. Chilton before us today from Arizona has shown us video 
footage of drug smugglers carrying backpacks packed with drugs 
across his property along the border because there are no 
enhanced physical barriers to delay that crossing. It is an 
easy target for the cartels.
    At this hearing, we will discuss the effects of these 
barriers on private citizens who live and work along the 
border. The Federal Government has an obligation to secure the 
homeland and protect the United States and its citizens from 
those who seek to do us harm. The Federal Government also has a 
responsibility to ensure just compensation is provided if there 
is a circumstance where private land is needed to carry out 
that duty of securing our sovereign border, as the Fifth 
Amendment to the Constitution requires.
    Current law requires consultation with the Secretaries of 
Agriculture and the Interior, States, local governments, Native 
American Tribes, and property owners along the border to 
minimize the impact of enhanced physical barriers. These 
safeguards are in place for a reason. They should be observed.
    I thank the Madam Chairwoman for holding this hearing. I 
look forward to hearing more.
    I yield back, Madam Chair.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             Feb. 27, 2020
    Thank you, Madam Chair and thank you to our witnesses who traveled 
from the border to be here today to provide an on-the-ground 
perspective.
    First, I would like to point out the long history of bipartisan 
Congressional interest in securing the border using enhanced physical 
barriers such as bollard-style fencing, innovative technologies, access 
roads and lighting, and more boots on the ground. What we refer to 
today as a wall system.
    The passage of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 authorized the construction of border 
barriers for the first time in statute and gave the Federal Government 
the authority to waive certain environmental laws.
    Speaker Pelosi and some Democrats on this committee voted for that 
bill.
    This waiver authority was a deliberate act by the Congress to avoid 
endless years of litigation that would make construction impossible.
    Back in the 1990's when this authority was being considered, 
construction was stalled for years in California on a stretch of land 
referred to as ``Smuggler's Gulch''--a known drug-trafficking route--
because environmental groups wanted to test that a bird could fly over 
the fence. A bird that is native to both Mexico and the United States. 
Meanwhile, cartels were driving vehicles loaded with drugs across the 
border into American communities.
    Since fencing construction began in the 1990's, enhanced physical 
barriers have forced cartels to adapt their smuggling routes to areas 
along the border without infrastructure, through the ports of entry, 
and through million-dollar tunnels.
    The wall system makes it more difficult to conduct their illicit 
business.
    In 2005, Congress expanded the waiver authority to include all laws 
the Secretary determines necessary to ensure expeditious construction 
of barriers and roads.
    Speaker Pelosi and some Democrats on this committee voted for that 
bill too.
    The Secure Fence Act of 2006 directed the Department of Homeland 
Security to achieve and maintain operational control of the 
international land borders of the United States by preventing all 
unlawful entries using physical barriers, technology, access roads, and 
personnel.
    That bill received yes votes from Senator Schumer and then-Senators 
Obama, Biden, and Clinton.
    Though because the wall system is now a priority for the President, 
many Democrats are changing their tune.
    Border Patrol analyses and plans, across Republican and Democrat 
administrations keep pointing to enhanced physical barriers as an 
effective solution.
    I was encouraged to see the Department use its waiver authority 
this month to reduce the length of time between award and construction 
of pre-qualified contracts using vetted companies already building 
other sections of the wall system. Some of these projects have already 
come in under budget, and the Army Corps has told committee staff that 
these projects include small businesses.
    Prior to 1992, parts of the San Diego Border Patrol Sector were not 
patrollable and essentially ceded to the cartels.
    After a wall was built in San Diego in 1992, illegal traffic 
dropped 92 percent. In 1993, El Paso saw 72 percent drop in illegal 
traffic in 1 year alone. Since Tucson's wall went up in 2000, there was 
a 90 percent drop. And finally, in Yuma since 2005, a 95 percent drop 
in illegal traffic was realized.
    These facts speak for themselves. Build a wall and crime will fall.
    The continued exploitation of our Southwest Border is an assault on 
our National security and our Nation's sovereignty that enriches 
criminal organizations who profit from addicting our friends, 
neighbors, colleagues, and even children to drugs and opioids.
    In fiscal year 2019, CBP seized nearly 750,000 pounds of drugs at 
the border. That includes approximately 2,135 pounds of fentanyl, which 
represents a lethal dose for more people than the entire population of 
the United States.
    Mr. Chilton, before us today from Arizona, has shown us video 
footage of drug smugglers carrying backpacks packed with drugs across 
his property along the border, because there are no enhanced physical 
barriers to prevent that.
    At this hearing we will discuss the effects of these barriers on 
private citizens who live and work along the border. The Federal 
Government has an obligation to secure the homeland and protect the 
United States and its citizens from those who seek to do us harm.
    The Federal Government also has the responsibility to ensure just 
compensation is provided if there is a circumstance where private land 
is needed to carry out that duty, as the fifth amendment to the 
Constitution requires. Current law requires consultation with the 
Secretaries of Agriculture and the Interior, States, local governments, 
Native American tribes, and property owners along the border to 
minimize the impact of enhanced physical barriers. These safeguards are 
in place for a reason.
    I look forward to hearing more about how we can secure the border, 
while at the same time, respecting the rights of Americans who live 
along it.
    Thank you and I yield back.

    Miss Rice. Thank you.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Chairwoman Rice. Thank 
you for holding today's hearing.
    It is no secret that I am concerned with President Trump's 
border security policies. One of the most wasteful of these 
policies is fixation on a boondoggle border wall. The President 
promised time and again that Mexico would pay for the wall. 
Instead, he has left American taxpayers to foot the bill. Worse 
still, hundreds of border residents will have their private 
land seized by the administration in order to build Trump's 
wall.
    I would like to remind Members that the Federal Government 
owns only roughly 35 percent at the U.S.-Mexican border. To 
construct hundreds of miles of new wall along the Southwest 
Border, the Federal Government will have to take privately-
owned land one way or another. Often, this private property 
provides for someone's livelihood or has been owned by families 
for generations. Takings on such a large and historic level as 
we are starting to see in south Texas are no small issues.
    I would also remind Members that this administration has 
taken advantage of its authority to waive all legal 
requirements to build border barriers. Each of the Trump 
administration's Secretaries or Acting Secretaries of Homeland 
Security have allowed the Department and CBP to deliberately 
bypass dozens of laws in order to complete this partisan 
campaign promise faster.
    Before the Trump administration, this authority had only 
been used a total of 5 times during the Bush administration. 
Since 2017, the Trump administration has exercised this 
authority 16 times. Most recently, Acting Secretary Wolf took 
the highly unprecedented approach of waiving procurement laws, 
further demonstrating the Executive overreach by the Trump 
administration to deliver on the President's dream of a border 
wall paid for by American taxpayers along the Southwest Border.
    However, the American public will not be fooled by this 
President's authoritarian action and word games intended to 
hide the bad behavior of his administration. We will never 
really know, if anything, a border wall will do to secure our 
borders, but we do know and have seen that it will irreparably 
harm real people and the land they live on.
    I am eager to hear from today's witnesses who have first-
hand experience with the consequences border communities face 
due to the hasty construction of a border wall.
    In addition, I believe the committee should learn more 
about the impacts that communities are anticipating as the 
President diverts additional funding from the military to the 
border and begins the biggest seizure of private land in the 
history of this Nation for a wall. Again, as a Nation of laws, 
we should follow the law.
    I thank the witnesses for appearing here today to inform 
the committee of the real-life impacts of a border wall. I hope 
what we can discuss here will help the full committee address 
the challenges facing border communities in a meaningful 
manner.
    With that, Madam Chair, I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           Feburary 27, 2020
    It is no secret that I am concerned with President Trump's border 
security policies. One of the most wasteful of these policies is his 
fixation on a boondoggle border wall. The President promised that 
Mexico would pay for the wall. Instead, he has left American taxpayers 
to foot the bill.
    Worse still, hundreds of border residents will have their private 
land seized by the administration in order to build Trump's wall. I 
would like to remind Members that the Federal Government only owns 
roughly 35 percent of land at the U.S.-Mexico border. To construct 
hundreds of miles of new wall along the Southwest Border, the Federal 
Government will have to take privately-owned land, one way or another.
    Often, this private property provides for someone's livelihood or 
has been owned by families for generations. Takings on such a large and 
historic level as we are starting to see in south Texas are no small 
issue.
    I would also remind Members that this administration has taken 
advantage of its authority to waive all legal requirements to build 
border barriers. Each of the Trump administration's Secretaries or 
Acting Secretaries of Homeland Security have allowed the Department and 
CBP to deliberately bypass dozens of laws in order to complete this 
partisan campaign promise ``faster.'' Before the Trump administration, 
this authority had only been used a total of 5 times during the Bush 
administration. Since 2017, the Trump administration has exercised this 
authority 16 times.
    Most recently, Acting Secretary Wolf took the highly unprecedented 
approach of waiving procurement laws--further demonstrating the 
Executive overreach by the Trump administration to deliver on the 
President's dream of a border wall along the Southwest Border.
    However, the American public will not be fooled by this President's 
authoritarian actions and word games intended to hide the bad behavior 
of his administration. We will never really know what (if anything) a 
border wall will do to secure our borders, but we do know and have seen 
that it will irreparably harm real people and the land they live on.
    I am eager to hear from today's witnesses who have first-hand 
experience with the consequences border communities face due to the 
hasty construction of a border wall. In addition, I believe the 
committee should learn more about the impacts that communities are 
anticipating as the President diverts additional funding from the 
military to the border and begins the biggest seizure of private land 
in the history of the Nation for his wall.

    Miss Rice. Thank you, Mr. Chairman.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    Without objection, Members not sitting on the subcommittee 
will be permitted to participate in today's hearing.
    I now welcome our panel of witnesses. Our first witness, 
Mr. Reynaldo Anzaldua, is a private landowner from Granjeno, 
Texas. He and his family currently own 60 acres of land within 
the Rio Grande Valley. Mr. Anzaldua is a Vietnam War veteran, 
and also served for 30 years in the U.S. Customs Service.
    Our second witness is Ms. Nayda Alvarez. She is a teacher, 
a mother, a grandmother, and a private landowner from La 
Rosita, Texas. Ms. Alvarez' family has lived in Starr County 
for at least 5 generations.
    Next, we have Dr. Ned Norris, Jr., who is the current 
chairman of the Tohono O'odham Nation. In May 2019, Dr. Norris 
was elected to serve a 4-year term as chairman. Dr. Norris has 
served the people of the Tohono O'odham Nation for over 4 
decades in various capacities, and from 2015 to 2017 served on 
the Homeland Security Advisory Council.
    Our final witness this morning is Mr. Jim Chilton, a fifth-
generation Arizona rancher. In 1979, Mr. Chilton and his 
brother formed Chilton Ranch & Cattle Company, a cow-calf 
ranching business. In 1987, Mr. Chilton, his wife, and his 2 
sons purchased a 50,000-acre ranch south of Arivaca, Arizona.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Anzaldua.

        STATEMENT OF REYNALDO ANZALDUA, PRIVATE CITIZEN

    Mr. Anzaldua. It is an honor to testify before this 
distinguished subcommittee about the harms President Trump's 
border wall would have on my family's land, my community, and 
my country.
    My name is Reynaldo Anzaldua. My family owns land in 
Mission, Texas, along the U.S.-Mexican border. I am 75 years 
old, a Vietnam War veteran, and a 30-year veteran of the former 
United States Customs Service of the United States Department 
of the Treasury, where I worked to inspect goods entering the 
United States at designated ports of entry along the border. I 
am also a native of the Rio Grande Valley of southern Texas, 
and I am here to share with you today what a new border wall 
would do to my home.
    My family owns over 60 acres of land in the path of Trump's 
border wall. This land near the Rio Grande River has been in my 
family for generations. On these acres my family ranches and 
leases the land to several dozen tenants who enjoy the 
riverfront by fishing and jet skiing. We like to spend time 
with family there, holding barbecues and relaxing near the Rio 
Grande. This is a peaceful place, and our neighbors are local 
institutions like La Lomita Chapel, a historic Catholic church 
from the 1800's; a small restaurant with a riverside patio; and 
Chimney Park, an RV community popular with retirees to the 
area.
    Right now, my family is fighting to defend our land in the 
path of the border wall. Because we did not allow the 
Government access to our property to survey, the Government 
sued us. These lawsuits and the dozens of others like them 
across the Southwest Border in Texas are, unfortunately, 
nothing new to my family and are part of a long and tragic 
history of Mexican Americans in the border region losing the 
lands.
    My family, many families like mine, lost their lands 
through intimidation, fraud, and even violence. For over 60 
years, I have witnessed to loss of lands through eminent 
domain.
    For me, the border wall is just another example of the lack 
of respect for land rights and will only waste taxpayers' money 
for a vanity project that will lead to more deaths. It is 
expected to have 100-foot surveillance towers, 24/7 lighting, 
and a 150-foot enforcement zone complete with fleets of 
military-grade vehicles.
    Because the Trump administration hopes to build along the 
path of an already existing levee system, the border wall also 
will not be directly along the Rio Grande at all. The wall can 
lie over a mile inland, leaving an area about the size of 
Washington, DC, between the river and the wall in U.S. 
territory in what will become a no man's land. It will be 
effectively inaccessible.
    The Border Patrol says some landowners will have gates. But 
who will know the codes to the gates, and who do we call if 
there are problems? What happens to the power--if the power 
goes out? What good is owning land if I have to ask the 
Government permission to access it? This is un-American.
    The wall is also causing collateral damage because private 
groups with no oversight are emboldened by the Government. A 
private group called We Build the Wall affiliated with Steve 
Bannon, Kris Kobach, and others, and other Trump supporters, 
have built a private wall next to my family's property. This 
group has no ties to or knowledge of my community. The private 
wall was built on the riverbank. By clearing vegetation, they 
have speeded up erosion. We will lose land in the next flood, 
and erosion would even change the international boundary, which 
is the river.
    Because of this, there are two lawsuits filed against it, 
but so far have failed to stop it. These cases, the court 
respected the rights of the landowner, and that is the border 
wall's landowner, a right that is being denied to my family.
    Finally, the Rio Grande Valley would not exist without the 
river that gives its name. Our water supply comes from the 
river. Building a wall cuts off the Valley from its lifeline. 
The border wall goes against everything that makes my home what 
it is, and most Rio Grande Valley residents oppose it. Today, 
the Rio Grande Valley is now home to over a million people, and 
our economy is fueled by trade, immigration, and travel to and 
from Mexico.
    Ultimately, I would like to point out to this subcommittee 
that the negative effects of the border wall are not 
hypothetical. People today are living with the effects of 
President Bush's failed border fence, and Trump's border wall 
will be worse.
    I would like to thank the--thank you for the--thank the 
committee for inviting me to testify today, and I hope the 
subcommittee does all within its power to be a check on this 
administration and its total abuse of border landowners' 
rights. Thank you.
    [The prepared statement of Mr. Anzaldua follows:]
                Prepared Statement of Reynaldo Anzaldua
                           February 27, 2020
    It is an honor to testify before this distinguished subcommittee 
about the severe harms President Trump's border wall would have on my 
family's land, my community, and my country.
    My name is Reynaldo Anzaldua and my family owns land in Mission, 
Texas, a city along the U.S.-Mexican border in the Rio Grande Valley. I 
am 75 years old, a Vietnam War Veteran, and a 30-year veteran of the 
former United States Customs Service of the U.S. Department of the 
Treasury, where I worked to inspect goods entering the United States at 
designated Ports of Entry along the border. I am also a native of the 
Rio Grande Valley of southern Texas, and I am here to share with you 
today what a new border wall would do to my home.
    My family owns over 60 acres of land in the path of Trump's border 
wall. This land near the Rio Grande River has been in my family for 
generations. On these acres, my family ranches and leases the land to 
several dozen tenants, who enjoy the riverfront by fishing and jet 
skiing, among other activities. We like to spend time with family 
there, holding barbeques and relaxing near the Rio Grande. This is a 
peaceful place, and our neighbors are local institutions like La Lomita 
Chapel, a historic Catholic church from the 1800's, a small restaurant 
with a riverside patio, and Chimney Park, an RV community popular with 
retirees to the area.
    There are so many ways the border wall will harm me and my family, 
but today I would like to focus on three. These include several issues 
with which you may not be familiar: (1) The long pattern of land 
divestment of low- and middle-income Mexican-Americans along the border 
like my family, (2) the tens of thousands of acres that will be left 
between the border wall and the Rio Grande in a ``no man's land'' 
cutoff from the world, and (3) the symbolic meaning of the border wall 
to the Rio Grande Valley, which would not exist without a vibrant and 
thriving border culture where goods and people move daily in both 
directions.
     long pattern of land divestment of mexican-american landowners
    Right now, my family and I are engaged in a fight to defend our 
land in the path of the border wall. Because we did not allow the 
Government to enter our land to conduct surveying for purposes of 
measuring the land to build the border wall, President Trump's 
Department of Justice sued me and my family. The Government only 
entered the land after a court-ordered access.
    We received an offer to sell letter from the Government for the 
land, and my family is attempting to negotiate with them over how the 
Government will pay us for the taking of our land. If we cannot agree, 
this could lead to the Government suing the family again.
    These lawsuits and and the dozens of others like them across the 
Southwest Border in Texas are unfortunately nothing new for my family, 
and fit within a long and tragic history of land divestment of Mexican-
Americans in the border region. Through intimidation, fraud, and even 
violence, many Mexican-American families like mine lost their land 
sometimes dating all the way from Spanish land grants from the 1700's 
to today.
    For over 60 years, I have borne witness to loss of land through 
eminent domain. It has been slow and steady, but always ends in the 
Government winning and my family being left with little to show for it.
    Over 10 years ago, the Federal Government during the Bush 
administration tried to take my family's land in Granjeno, TX to build 
what was then called the ``border fence'' after the Secure Fence Act of 
2006 was passed. Although they called it a fence in 2006 and call it a 
border wall today, its impact is the same.
    Even before that, the Government took land from a family member to 
build a new Port of Entry in Mission, TX, in the early 1990's. Before 
that still my family lost land for the development of a flood-control 
zone.
    For me, President Trump's latest border wall project is just one 
more example of the lack of respect for land rights in the region I 
call home. This border wall will only waste the taxpayers' money for a 
vanity project that will lead to more deaths.
  67 square miles of ``no man's land'' between the river and the wall
    Additionally, the path of the border wall is not directly along the 
Rio Grande at all. Because the Trump administration has decided to 
build its latest border walls along the path of an already-existing 
levee system in Hidalgo and Cameron Counties, the wall can lie over a 
mile inland in some areas. This leaves tens of thousands of acres of 
U.S. territory in what will become a ``no man's land'' cutoff from the 
United States and the rest of the world. This land will be effectively 
inaccessible to property owners with land left on the wrong side of the 
wall.
    In South Texas alone, if Trump's plans come to pass, about 67 
square miles will lie between the river and the wall. That's about the 
size of Washington, DC.
    This land is important and is made up of homes, wildlife preserves, 
ranchland, and sites that host many endangered species, such as the 
rare ocelot.
    The border wall would orphan these massive parts of the Rio Grande 
Valley and lock them into an even more militarized zone. The Border 
Patrol says some owners will have gates to farm or visit their property 
behind the wall, but there are a lot of details that make this 
complicated. Who will know the codes to the gate, and who do we call if 
there are problems? What happens if the power goes out? What good is 
owning land if I have to be at the mercy of the Government and ask 
their permission to access it? This is un-American.
                       private border wall impact
    The border wall is also causing collateral damage through the 
actions of private groups emboldened by this Government assault on our 
community.
    A private group called ``We Build the Wall'' has built a private 
wall with no oversight. This group has no ties to or knowledge of my 
community, and is affiliated with Steve Bannon, Kris Kobach, and other 
Trump supporters.
    Late last year, I began seeing construction of this private wall 
right next to my family's property, right on the banks of the river. 
There are international treaties the United States has with Mexico that 
protect the river from damage by either country. By clearing vegetation 
from the riverbank, they have speeded up the erosion process and in the 
next flood, we will lose part of our land. Erosion caused by this new 
wall could even change the international boundary, which is defined as 
the river.
    Because of this, there were 2 lawsuits filed against the private 
border wall, but both so far have failed to stop it. In these cases, 
the courts respected the rights of the landowner--a right that is being 
denied to my family.
    Whether a wall is built far from the river or right on its banks, 
there is no way that this project can avoid environmental devastation 
and destruction of the community.
                    impact on the rio grande valley
    Finally, I would like to emphasize that the Rio Grande Valley would 
not exist without the river that gives it its name, and that border 
walls go against everything that makes my home what it is. Three in 4 
Rio Grande Valley residents oppose the border wall.
    Today, the Rio Grande Valley is now home to over a million people 
on the U.S. side of the border, and our economy is fueled by trade, 
immigration, and travel to and from Mexico. Without it, it would simply 
not be the same place.
    Our water supply comes from the river. Building a wall both 
symbolically and physically cuts off the Valley from its lifeline.
    As a retired official of the former U.S. Customs Service, I 
understand the importance of legitimate trade to both the Rio Grande 
Valley region and the rest of the United States. Without a vibrant 
culture of goods and people moving back and forth between Mexico and 
the United States, the society we take for granted could not exist.
    This vibrant culture is threatened today by the border wall, which 
is expected to have 100-foot surveillance towers, 24/7 lighting, and a 
150-foot enforcement zone complete with fleets of military-grade 
vehicles.
                               conclusion
    Ultimately, I would like to point out to this subcommittee that the 
negative effects of the border wall are not hypothetical. There are a 
million real people in the Rio Grande Valley living with the effects of 
President Bush's failed border fence project today, and Trump's border 
wall will be no different.
    While some landowners may be facing the threat of eminent domain 
for the first time, this man-made crisis is nothing new for me.
    My family's property will become one of the many stuck in ``no 
man's land'' between the river and the wall, an area as large as our 
Nation's capital city. All of this is in service of a project that most 
people in the Rio Grande Valley completely reject, and that is an 
insult to our American values.
    Thank you to the subcommittee for inviting me to testify today, and 
I hope the subcommittee does all within its power to be a check on this 
administration and its total abuse of border landowners' rights.

    Miss Rice. Thank you, Mr. Anzaldua.
    I now recognize Ms. Alvarez to summarize her statement for 
5 minutes.

          STATEMENT OF NAYDA ALVAREZ, PRIVATE CITIZEN

    Ms. Alvarez. It is an honor to testify before this 
distinguished subcommittee about the severe harms Trump's 
border wall would have on my family's land, my community, and 
my country.
    My name is Nayda Alvarez, and I live in a small community 
called La Rosita in Starr County along the U.S.-Mexico border. 
I own and live on the land that has been passed down within my 
family for 5 generations. Thanks to the President's campaign 
promise to build a wall across the entire Texas border, my home 
is now in its path. I have been living with the threat for more 
than a year now. The Federal Government has sued me to get 
access to my land through eminent domain. I was able to testify 
before Congress a year ago about the border wall. 
Unfortunately, since then, we have already begun to see the 
devastation as Trump's border wall has begun to go up in south 
Texas.
    My family peacefully lives and works in Starr County, and 
my family has a long history of working in law enforcement. I 
have lived on this land for more than 40 years with my family, 
alongside where my grandfather lived. I worry about my father's 
health once our land, our home is taken. This land was also my 
mother's home where she raised a family, where she lived her 
last days, and where she took her last breath. This land is 
where my daughters were raised and where I see my grandchildren 
play. This is not only my home but it is a place of gathering 
for my family. It is part of my family history and the 
inheritance passed down to me from my ancestors, a tradition I 
intend to continue.
    However, this ancestral home will be destroyed by the 
construction of the border wall. The Government has already 
sued me so they can survey and decide how much of my land they 
will take through eminent domain, and we call this the land of 
the free. This access would give the Government the right to 
come onto my land and tear things apart, making borings, 
cutting vegetation, and do whatever else they want on my home 
and property without me being able to do anything about it. The 
Government has offered me just a hundred dollars for this 
access, which is what they think is fair price for giving up so 
much, and this is the land of prosperity.
    As a lifetime border resident, I have never felt unsafe in 
my own community, having grown up with a father and brother who 
served in law enforcement for decades. Despite living in a 
community, one of the safest in America, helicopters frequently 
fly overhead. Local police, sheriffs, State troopers, and 
Border Patrol are a constant presence in my peaceful home. This 
makes our home, our country look like a war zone.
    In more than 40 years of living on the border, I cannot say 
that I have ever seen migrants crossing into the United States 
across my family's property. There is already a natural barrier 
created by a tall bluff from the river. No explanation was ever 
given to me as to why the Government plans to spend billions to 
construct an artificial one, except for an expensive, needless 
campaign promise.
    There has been no transparency, and we have been 
intimidated by the Government to sign over rights to our land. 
We have been talked down to by Government officials who think 
we are not aware of our rights, who have no respect for 
excruciating life events that we were experiencing.
    When my mother was on her death bed, Government officials 
continued to call and were still asking for our family that we 
sign over our--sign over to the Government our rights to the 
land. I had to remind these individuals my mother was dying of 
cancer in order to stop the calls.
    Furthermore, the Government is hastily rushing through the 
process as the 2020 elections approach. It is waiving all laws 
without any real concern for landowners, the land, or wildlife. 
I cannot compete with the Government's ability to waive laws 
and rush through this process without consideration. It is not 
fulling assessing the land's ability to withstand a monstrous 
construction project. The border wall that already fell down in 
California in late January is evidence of that. My home is just 
200 feet from the river. The wall will not fit there. When I 
asked the Government officials how the wall would fit, they 
said they would squeeze it in.
    Will I still have a home at the end of this? I will lose my 
way of life, my privacy, my access to a beautiful river. My 
plans for the future are now filled with uncertainty. I have 
been a teacher for 22 years and anticipated retiring soon. 
However, I can no longer make plans because I do not know what 
will happen in the future.
    The Rio Grande Valley is very prone to dangerous flooding, 
but the Government has shown no concern for our safety. My home 
could easily be washed away. All the hard work and lifetime of 
building my dreams are thwarted in this border wall, as those 
of so many others in my community.
    Thank you for granting me this opportunity to testify, and 
I am ready to address any questions you may have.
    [The prepared statement of Ms. Alvarez follows:]
                  Prepared Statement of Nayda Alvarez
                           February 27, 2020
    It is an honor to testify before this distinguished subcommittee 
about the severe harms Trump's border wall would have on my family's 
land, my community, and my country.
    My name is Nayda Alvarez and I live in the Rio Grande Valley of 
South Texas in a small community called La Rosita in Starr County, 
along the U.S.-Mexico border. I own and live on land that has been 
passed down within my family for 5 generations.
    Thanks to the President's campaign promise to build a wall across 
the entire border in Texas, my home is now in the path of the border 
wall, and the Federal Government has sued me to get access to my land 
through eminent domain. I have been living with the threat of the 
border wall for more than a year. I had the opportunity to testify 
before the House Judiciary Committee, Subcommittee on the Constitution, 
Civil Rights, and Civil Liberties Hearing on the National Emergencies 
Act on February 28, 2019. Unfortunately, since then we have already 
begun to see the devastation as Trump's border wall has begun to go up 
in South Texas.
    My family has peacefully lived and worked in Starr County and my 
family has a long history of working in law enforcement. I have lived 
on this land for more than 40 years with my family, alongside where my 
grandfather lived. I worry about my father's health once our land, our 
home, is taken. This land was also my mother's home, where she raised a 
family, where she lived her last days, and where she took her last 
breath this past March.
    This land is where my daughters were raised and where I see my 
grandchildren play. This land is not only my home, but it is a place of 
gathering for my family, it is part of my family history, and the 
inheritance passed down to me from my ancestors--a tradition I intend 
to continue. However, this ancestral home will be destroyed by the 
construction of the border wall.
    With the construction of the border wall, my plans for the future 
are filled with uncertainty now. I have been a teacher for 22 years, 
and anticipated retiring in a few years. However, I can no longer plan 
for tomorrow because I do not know what will happen tomorrow, much less 
in the future.
    The Government has already sued me, wanting access to my land for 
an entire year--so they can survey and decide how much of my land they 
will take through eminent domain. This access would give the Government 
the right to come onto my land and tear things apart--make borings, cut 
vegetation, and do whatever else they want on my home and property 
without me being able to do anything about it. The Government has 
offered me just $100 for this access--which is what they think is a 
fair price for giving up so much.
    There is no reason for my home to be sacrificed to simply fulfill 
an expensive and needless campaign promise. As a lifetime resident of 
the Rio Grande Valley, I know there is no emergency in my home. There 
is no ``invasion.'' I have never felt unsafe in my own community, 
having grown up with a father who served in law enforcement for over 40 
years and a brother who has been in law enforcement in Starr County for 
more than 20 years. On the contrary, Starr County is one of the safest 
places to live in America--and yet it is already one of the most over-
policed areas of our country. Despite living in a quiet community with 
very little crime, helicopters frequently fly overhead, local police, 
sheriffs, and State troopers, along with Federal agencies like the 
Border Patrol are a constant unwelcome presence in my peaceful home. 
This over-policing is what unnecessarily makes our home and our county 
look like a warzone.
    In more than 40 years of living on the border, I cannot say that I 
have ever seen migrants crossing into the United States across my 
family's property. To do so, they would have to cross the river, and 
then they would have to climb up a bluff that runs alongside the river 
at the end of my property. The river and the bluff create a natural 
barrier on my family's property, a natural barrier that already exists 
between Mexico and my land in the United States. No explanation was 
ever given to me as to why the U.S. Government plans to spend billions 
to construct an artificial one.
    There has been no transparency in this process and we have been 
intimidated by Government officials to sign over rights to our land. We 
have been talked down to by Government representatives who think we are 
not aware of our rights. With no respect for the excruciating life 
events we were experiencing, when my mother was on her deathbed, 
Government officials continued to call and were still asking our family 
that we sign over to the Government our rights to the land. I had to 
remind these individuals that my mother was dying of cancer in order to 
stop the calls.
    Furthermore, the Government is hastily rushing through construction 
processes in anticipation of the 2020 elections. It is waiving all 
laws, without any real concern for the landowners, the land, and 
wildlife. I cannot compete with the Government's ability to waive laws 
and rush through this process without consideration. I have seen maps 
that are incomplete at best, showing that the Government is not fully 
documenting the land and taking into account the geography or 
topography of it, and its ability to withstand such a monstrous 
construction project. The border wall that already fell down in 
California in late January is evidence of that.
    The Government plans to build a wall and a maintenance road just 
feet from my house. They describe a 150-foot wide ``enforcement zone'' 
between my house and the river--but my home is just 200 feet from the 
Rio Grande River and the land closest to the river is unstable and 
subject to erosion. When I asked Government officials how they will fit 
the wall between my home and the river, they simply said they would 
``squeeze it in.''
    At the end of all this--will my home be south of the wall? Will it 
be torn down? Will I still have a home? My land? If I am able to keep 
my home, how can I live on my land with the border wall looming over 
it? I will lose my privacy and our way of life.
    The Rio Grande Valley is very prone to flooding, having already 
experienced dangerous floods, but the Government has shown no concern 
for our safety and the increased risks posed by the border wall. If 
there is another flood, my home could easily be washed away. All the 
hard work and a lifetime of building my dreams are thwarted by this 
border wall, as are those of so many other residents of the Rio Grande 
Valley.
    Thank you again for granting me this opportunity to testify. I am 
ready to address any questions you may have.

    Miss Rice. Thank you, Ms. Alvarez.
    I now recognize Chairman Norris to summarize his statement 
for 5 minutes.

  STATEMENT OF NED NORRIS, JR., CHAIRMAN, THE TOHONO O'ODHAM 
                             NATION

    Mr. Norris. Good morning, Chairwoman Rice, Ranking Member 
Higgins, and distinguished Members of the subcommittee. I am 
Ned Norris, Jr., and I am the chairman of the Tohono O'odham 
Nation of Arizona. It is an honor to testify before you today 
on behalf of my Nation. I also want to recognize Representative 
Lesko, whom the district of it is in the northern most part of 
our reservation is located.
    The Tohono O'odham Nation is a Federally-recognized Tribe 
with more than 34,000 enrolled Tribal citizens. Our ancestors 
have lived in what is now Arizona and northern Mexico since 
time immemorial. Without consideration for our sovereign rights 
or what was best for our people, the international border was 
drawn through our ancestral territory in 1854, separating our 
people and our lands. As a result, today, our reservation 
shares a 62-mile border with Mexico, the longest of any Tribe's 
reservation on the Southern Border. Seventeen O'odham 
communities with approximately 2,000 Tribal citizens are still 
located in our historical homelands in Mexico.
    O'odham on both sides of the border share the same 
language, culture, religion, and history. Our citizens cross to 
participate in pilgrimages and ceremonies at important 
religious and cultural sites on both sides of the border, to 
visit family and friends, and to pay respects to loved ones 
buried in cemeteries on either side.
    Today, only a portion of our ancestral territory is 
encompassed within the boundaries of our current reservation. 
Our original homelands ranged well beyond boundaries and 
include--well beyond these boundaries and include what is now 
Organ Pipe National--Organ Pipe Cactus National Monument, 
Cabeza Prieta National Wildlife Refuge, and the San Bernardino 
National Wildlife Refuge.
    The Nation has significant and well-documented connections 
to these lands and the religious and cultural and natural 
resources located within them, including at Quitobaquito 
Springs and Monument Hill.
    The Nation shares the Federal Government's concerns about 
border security, and we believe the border-related law 
enforcement measures we have taken in--have taken in 
coordination with CBP are necessary to protect the Nation, 
specifically, and the United States generally.
    Over the past decade, the Nation has spent an annual 
average of $3 million in Tribal funds to help meet the United 
States' border security responsibilities. We participate in 
Tribally-led high-intensity drug trafficking task forces and in 
a Shadow Wolves Native ICE unit, and we have authorized vehicle 
barriers and ICE office, CBP forward operating bases, CBP 
checkpoints, and integrated fixed towers on our Tribal lands.
    But the Nation strongly opposes the construction of a 
border wall in our historical territory. Such a wall comes at 
great cost to the American taxpayer. It also is in ineffective 
and remote geographic areas like ours, and it is needlessly 
destructive when there are more efficient technologies that can 
control the border without damaging the religious, cultural, 
and environmental resources on which our members rely.
    We only are deeply--we are also deeply concerned about the 
authority that allows Homeland Security to waive all statutory 
protections in the name of expediting border wall construction. 
Section 102 of the Illegal Immigration Reform and Immigration 
Responsibility Act allows DHS to trample over rights of the 
Tohono O'odham Nation and other border communities in a way 
that would never have been tolerated in other parts of the 
United States.
    And while IIRIRA requires DHS to consult with Tribal, 
State, and local government and property owners, consultation 
either has not occurred or has been woefully inadequate, 
resulting in no real mitigation measures. Recent border wall 
construction activities already have damaged areas of cultural 
significance to the Nation, including the bulldozing of an area 
near Quitobaquito Springs, which destroyed burial grounds, and 
the blasting of Monument Hill, a ceremonial site that is a 
final resting place for Tribal ancestors.
    CBP commenced these activities despite our Tribal historic 
preservation staff raising concerns. To add insult to injury, 
yesterday, CBP invited the press to witness more blasting at 
Monument Hill immediately before I testified in the House 
Natural Resources Committee about this very subject. The 
disrespect for our cultural resources is painful for us and a 
symptom of the dangerous way in which IIRIRA has been 
implemented.
    We thank the committee for its efforts to address this 
serious problem through its vote on legislation which would 
rescind DHS's dictatorial waiver authority and that would help 
protect our religious and cultural heritage, our way of life, 
and our environment.
    I am happy to answer any questions.
    [The prepared statement of Mr. Norris follows:]
                 Prepared Statement of Ned Norris, Jr.
                           February 27, 2020
                  introduction & historical background
    Good afternoon, Chairwoman Rice, Ranking Member Higgins, and 
distinguished Members of the subcommittee. I am Ned Norris, Jr. and I 
am the chairman of the Tohono O'odham Nation of Arizona. It is an honor 
to have the opportunity to testify before you today on behalf of my 
Nation. I also want to pay our respects to Representative Lesko, in 
whose district the northern-most portion of our Reservation is located.
    For the reasons that will be obvious from my testimony today, the 
Nation is deeply appreciative of the attention that this subcommittee, 
and its parent full committee, is paying to the serious issues that 
surround the frighteningly broad authority that the Secretary of 
Homeland Security has been given to ignore all manner of statutory 
rights in connection with border wall construction. The waiver 
authority granted the Secretary in the Illegal Immigration Reform and 
Immigrant Responsibility Act (IIRIRA) allows the Secretary to take 
liberties with the law in a way more reminiscent of a totalitarian 
state than a democracy in which all citizens are equally protected by 
the laws of the land. We support the committee's efforts, and hope that 
the full House will take up the noble cause of H.R. 1232, The 
Rescinding DHS' Waiver Authority for Border Wall Act, and return this 
authority to Congress, where it belongs.
    The Tohono O'odham Nation is a Federally-recognized Tribe with more 
than 34,000 enrolled Tribal citizens. Our ancestors have lived in what 
is now Arizona and northern Mexico since time immemorial. Without 
consideration for our people's sovereign and historical rights, in 1854 
the international boundary was drawn through our ancestral territory, 
separating our people and our lands. As a result, today the main body 
of our Reservation shares a 62-mile border with Mexico--the second-
longest international border of any tribe in the United States, and the 
longest on the Southern Border. On the other side of the border in 
Mexico, 17 O'odham communities with approximately 2,000 members are 
still located in our historical homelands. O'odham on both sides of the 
border share the same language, culture, religion, and history. Our 
Tribal members regularly engage in border crossings for pilgrimages and 
ceremonies at important religious and cultural sites on both sides of 
the border. We also cross the border to visit family and friends.
    Today only a portion of our ancestral territory is encompassed 
within the boundaries of our current U.S. Reservation. Our original 
homelands ranged well beyond these boundaries, and included what is now 
the Organ Pipe Cactus National Monument (adjacent to the western 
boundary of the Nation's Reservation), the Cabeza Prieta National 
Wildlife Refuge, and the San Bernardino National Wildlife Refuge to the 
east. The Nation has significant and well-documented connections to 
these lands and the religious, cultural, and natural resources located 
there.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 the nation supports and is actively engaged in border security efforts
    The Nation has long been at the front lines of securing the border. 
Over the past decade the Nation has spent an annual average of $3 
million of our own Tribal funds on border security and enforcement to 
help meet the United States' border security responsibilities. The 
Nation's police force typically spends more than a third of its time on 
border issues, including the investigation of immigrant deaths, illegal 
drug seizures, and human smuggling.
    The Nation also has long-standing, positive working relationships 
with Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE) and other Federal law enforcement agencies. The 
Nation has entered into several cooperative agreements with CBP and 
ICE, and pursuant to numerous Tohono O'odham Legislative Council 
resolutions has authorized a number of border security measures on its 
sovereign lands to help CBP. Some examples include:
  <bullet> High Intensity Drug Trafficking (HIDTA) Task Force.--The 
        Nation leads a multi-agency anti-drug smuggling task force 
        staffed by Tohono O'odham Police Department detectives, ICE 
        special agents, Border Patrol agents, and the FBI. This is the 
        only Tribally-led High Intensity Drug Trafficking (HIDTA) Task 
        Force in the United States. In 2018, the Nation's Task Force 
        Commander W. Rodney Irby received an award recognizing him as 
        the HIDTA National Outstanding Task Force Commander.
  <bullet> ICE office and CBP forward operating bases.--Since 1974, the 
        Nation has authorized a long-term lease for an on-reservation 
        ICE office. The Nation also approved leases for 2 CBP forward 
        operating bases that operate on the Nation's lands 24 hours, 7 
        days a week.
  <bullet> Vehicle barriers on our lands.--CBP constructed extensive 
        vehicle barriers that run the entire length of the Tribal 
        border and a patrol road that parallels it.
  <bullet> CBP checkpoints on our lands.--The Nation has authorized CBP 
        checkpoints on the Nation's major east-west highway to Tucson 
        and the northern highway to Casa Grande.
  <bullet> Integrated Fixed Towers.--The Nation approved a lease of its 
        lands to allow CBP to build an Integrated Fixed Tower (IFT) 
        system that will include surveillance and sensor towers with 
        associated access roads on the Nation's southern and eastern 
        boundaries to detect and help interdict illegal entries.
  <bullet> Shadow Wolves, an ICE tactical patrol unit.--The Nation also 
        has officers that are part of the Shadow Wolves, an ICE 
        tactical patrol unit based on our Reservation which the Nation 
        played a role in creating. The Shadow Wolves are the only 
        Native American tracking unit in the country, and its officers 
        are known for their ability to track and apprehend immigrants 
        and drug smugglers, using traditional tracking methods. The 
        Shadow Wolves have apprehended countless smugglers and seized 
        thousands of pounds of illegal drugs.
   border ``wall'' construction in remote areas like ours is deeply 
 harmful to the nation--as well as ineffective and a waste of taxpayer 
                                dollars
    The Nation shares the Federal Government's concerns about border 
security, and we believe that the measures we have taken to assist CBP 
and conduct our own law enforcement efforts are necessary to protect 
the Nation specifically and the United States generally. But we 
strongly oppose the construction of a border wall on our southern 
boundary. Such a wall comes at great cost to the American taxpayer in 
this era of a skyrocketing Federal deficit. It is ineffective in remote 
geographic areas like ours where it can easily be circumvented by 
climbing over, tunneling under, or sawing through it. And it is 
needlessly destructive when there are more efficient ways to control 
the border without damaging the religious, cultural, and environmental 
resources on which our members rely and which make our ancestral land 
sacred to our people.
    Damage Already Done by Construction Outside Our Reservation.--In 
several amicus briefs filed in litigation in 2019 challenging 
construction of the border wall,\1\ the Nation detailed the negative 
impacts it knew would be caused by border wall construction in Tucson 
Sector Projects 1, 2, and 3 and Yuma Sector 3. Today, some of that 
construction is fully under way and the anticipated damage is now 
occurring. Tucson Sector Projects 1 and 2 involve construction of a 43-
mile long, 30-foot high concrete-filled steel bollard fence (pedestrian 
barrier or wall) to replace existing vehicle barriers and pedestrian 
fencing near the Lukeville Port of Entry. The Yuma Sector Project 
contemplates over 30 additional miles of wall construction, connecting 
with these projects, extending through Cabeza Prieta National Wildlife 
Refuge and Organ Pipe Cactus National Monument, and ending less than 2 
miles from the western boundary of the Nation's Reservation. Similar 
construction is on-going in Tucson Sector Project 3 to the east of the 
Tribe's reservation, including the San Bernardino National Wildlife 
Refuge. These projects already have caused significant and irreparable 
harm to cultural and natural resources of great importance to the 
Nation.
---------------------------------------------------------------------------
    \1\ See, e.g., Sierra Club and Southern Border Communities 
Coalition v. Donald J. Trump, No. 4:19-cv-00892-HSG, Amicus Curiae 
Brief of Tohono O'odham Nation in Support of Plaintiff's Motion for 
Supplemental Preliminary Injunction (June 18, 2019, N.D. Ca.) (Dkt. No. 
172); Amicus Curiae Brief of Tohono O'odham Nation in Support of 
Plaintiff's Motion for Partial Summary Judgment (October 18, 2019) 
(Dkt. No. 215).
---------------------------------------------------------------------------
    The Federal Government itself acknowledged the significance of the 
Nation's interest in the areas that are being impacted by the on-going 
and contemplated construction in the Tucson and Yuma Sector projects. 
For example, the National Park Service in its General Management Plan 
for the Organ Pipe Cactus National Monument (a UNESCO biosphere 
reserve)\2\ acknowledged the importance of Quitobaquito Spring, which 
is located 200 yards from the border:
---------------------------------------------------------------------------
    \2\ Biosphere reserves are areas with unique ecosystems recognized 
by the United Nations Educational, Scientific and Cultural Organization 
(UNESCO) as special places for testing interdisciplinary approaches to 
managing social and ecological systems. Each reserve promotes solutions 
reconciling the conservation of biodiversity and sustainable use. 
http://www.unesco.org/new/en/natural-sciences/environment/ecological-
sciences/biosphere-reserves/.

``There are 11 springs in the monument, eight of which are located at 
Quitobaquito, by far the largest source of water. The pond and dam at 
Quitobaquito were constructed in 1860, and the resulting body of water 
is one of the largest oases in the Sonoran Desert. The site is also 
sacred to the O'odham, who have used the water from this spring for all 
of their residence in the area . . . 
``There still exist sites within the monument which are sacred to the 
O'odham, including Quitobaquito Springs . . . Even to the present day, 
the O'odham continue to visit the monument to collect sacred water from 
the Springs, to gather medicinal plants, and to harvest the fruit of 
the organ pipe and saguaro cactus.''\3\
---------------------------------------------------------------------------
    \3\ U.S. National Park Service, Organ Pipe Cactus National 
Monument, Final General Management Plan, Development Concept Plans, 
Environmental Impact Statement (Feb. 1997), at 30, 33, available at 
https://www.nps.gov/orpi/learn/management/upload/fingmp.pdf.

    The Park Service also has recognized that there are O'odham burial 
sites within Quitobaquito.\4\ In a more recent study, the National Park 
Service identified 5 new archeological sites (of pre-contact Native 
American artifacts) and additional archeological resources within a 60-
foot-wide Federal easement that runs along the border in Organ Pipe, 
noting that many existing archeological sites will be impacted or 
destroyed by the border wall construction, and that many areas along 
the Organ Pipe border have not yet been surveyed to identify 
archeological and culturally-sensitive sites.\5\ Indeed, recent 
construction activities already have resulted in damage to areas of 
significance to the Nation within Organ Pipe, including the blading of 
an area near Quitobaquito Springs and blasting in an area called 
Monument Hill, which we believe has disturbed human remains.\6\
---------------------------------------------------------------------------
    \4\ Id. at 158, citing Anderson, Keith M., Bell, Fillman and 
Stewart, Yvonne G., Quitobaquito: A Sand Papago Cemetery, Kiva, 47, no 
4 (Summer, 1982) at 221-22; see also Bell, Fillman, Anderson, Keith M. 
and Stewart, Yvonne G., The Quitobaquito Cemetery and Its History, U.S. 
National Park Service, Western Archeological Center (Dec. 1980), 
available at http://npshistory.com/series/anthropology/wacc/
quitobaquito/report.pdf.
    \5\ Veech, Andrew S., Archeological Survey of 18.2 Kilometers (11.3 
Miles) of the U.S.-Mexico International Border, Organ Pipe Cactus 
National Monument, Pima County, Arizona, U.S. National Park Service, 
Intermountain Region Archeology Program (July 2019), available at 
https://games-cdn.washingtonpost.com/notes/prod/default/documents/
cbd7ef6a-3b5b-4608-9913-4d488464823b/note/7a429f63-9e46-41fa-afeb-
c8e238fcd8bb.pdf (discovery of 5 new archeological sites and 55 
isolated finds; recommending additional evaluation of sites, noting 
that 17 identified archeological sites will be destroyed by the border 
wall construction, and that many areas along the border within the 
Monument remain unsurveyed).
    \6\ See Firozi, Paulina, The Washington Post, Sacred Native 
American burial sites are being blown up for Trump's border wall, 
lawmaker says (Feb. 9, 2020) https://www.washingtonpost.com/
immigration/2020/02/09/border-wall-native-american-burial-sites/.
---------------------------------------------------------------------------
    Similar expert reports show archeological sites of significance to 
the Nation in the immediate vicinity of Tucson Project 3 in the San 
Bernardino Valley, as well as the Cabeza Prieta National Wildlife 
Refuge, although these areas are less well-surveyed so the extent of 
cultural and natural resources potentially affected by construction of 
a border wall is even less well-known.\7\ But there is little question 
that the on-going construction of 43 miles of 30-foot high steel 
bollard wall will have serious negative impacts on trees, cacti, and 
other plants of documented significance to the Nation, on archeological 
and burial sites of O'odham ancestors, on wildlife migration, and on 
access to vitally important sources of water, and that it will cause 
flooding in those areas where construction occurs.\8\
---------------------------------------------------------------------------
    \7\ Fish, Paul R.; Fish, Suzanne K.; Madsen, John H., Prehistory 
and early history of the Malpai Borderlands: Archaeological synthesis 
and recommendations, U.S. Department of Agriculture, Forest Service 
(2006) at 29-30, available at https://www.fs.fed.us/rm/pubs/
rmrs_gtr176.pdf; U.S. Fish and Wildlife Service, Cabeza Prieta National 
Wildlife Refuge: Comprehensive Conservation Plan, Wilderness 
Stewardship Plan and Environmental Impact Statement (Aug. 2006) at 172, 
586, available at https://www.fws.gov/uploadedFiles/CPNWREIS.pdf; U.S. 
Fish and Wildlife Service, Environmental Assessment of the Malpai 
Borderlands Habitat Conservation Plan (July 26, 2008) at 17, available 
at https://www.fws.gov/southwest/es/arizona/Documents/HCPs/Malpai/
MBHCP%20EA%20w%20FONSI.pdf.
    \8\ See Sierra Club, Amicus Curiae Brief of Tohono O'odham Nation 
at 7-8.
---------------------------------------------------------------------------
    The Nation Is Deeply Concerned that DHS Will Next Extend 
Construction Onto The Nation's Reservation.--If the wall is extended 
onto our Reservation, it will divide our lands and our people, creating 
a barrier between families and communities who share the same language 
and culture. It will interfere with our members' traditional crossings 
for domestic, religious ceremonial and cultural purposes. A wall will 
impede the natural flow of water and prevent it from reaching our 
Reservation, including the man-made watering holes used by our 
livestock and by wild animals. A wall built across natural washes also 
will have a damming effect (as it already has done near Lukeville), and 
exacerbate the flooding that already occurs on our roads and in our 
communities during monsoon season. Construction of the wall near the 
outskirts of our reservation already is disturbing and destroying 
culturally significant sites and cultural resources, Tribal 
archeological resources, and sacred sites and human remains, and 
already impacting our wildlife, including some endangered species like 
the jaguar that are sacred to American Indian tribes, preventing them 
from moving freely within their habitat and interfering with their 
natural migration patterns. Construction of the wall near our 
reservation also already is interfering with the flow and use of scarce 
and vital water resources, including seasonal washes, on which plants, 
wildlife, and livestock depend. The plants are food sources for animals 
and are used by Tribal members for food, medicine, and cultural 
purposes.
    the iirira waiver authority is inconsistent with american values
    The Nation is deeply troubled by the Federal statute that gives the 
Department of Homeland Security (DHS) nearly dictatorial power to issue 
to itself a ``waiver'' to circumvent any law with which it does not 
wish to comply. DHS has used this self-waiver authority to avoid more 
than 42 laws that otherwise would protect the rights of individuals and 
local governments, private property rights, water rights, religious 
practices and culturally sensitive sites, the environment, endangered 
species, and a host of other rights and resources that Americans--and 
the Tohono O'odham Nation--hold dear.
    As you know, the culprit is Section 102(c) of IIRIRA, as modified 
by the Real ID Act of 2005. IIRIRA authorizes the Secretary of DHS to 
install additional physical barriers and roads near the border to deter 
illegal crossings into the United States, but allows the Secretary to 
do this without taking into consideration whether the measures are 
cost-effective, how well they actually work, or how much damage they 
may do to the communities and environment impacted by the measures. 
IIRIRA Section 102(a). Section 102(c) provides:

``Notwithstanding any other provision of law, the Secretary of Homeland 
Security shall have the authority to waive all legal requirements such 
Secretary, in such Secretary's sole discretion, determines necessary to 
ensure expeditious construction of the barriers and roads under this 
section. Any such decision by the Secretary shall be effective upon 
being published in the Federal Register.''

    8 U.S.C.  1701 note. The language is so broad that the DHS 
Secretary has claimed he has the authority to waive any law--including 
State and other laws--if he deems it necessary for expeditious 
construction of border barriers. In 2008, DHS issued a waiver that 
covers a large portion of the Southern Border in California, New 
Mexico, Texas, and Arizona, including the Tohono O'odham Nation's 
border with Mexico. See 73 Fed. Reg. 19078 (April 8, 2008) 
(correction). The notice waives the application of virtually all 
potentially applicable Federal environmental, cultural, and religious 
protection laws, and all Federal, State, or other laws, regulations, 
and legal requirements deriving from or related to the subject of those 
Federal laws. Id. at 19080. Since then, DHS has issued a series of 
additional waivers to allow construction of the border wall, see, e.g., 
84 Fed. Reg. 21798 (May 15, 2019), and just last week issued yet 
another waiver that allows the administration to ignore Federal 
procurement and contracting laws (in addition to all environmental 
laws) where it is currently constructing the border wall in California, 
Arizona, and Texas. See 85 Fed. Reg. 9794 (Feb. 20, 2020).
    The extraordinary latitude of DHS's authority to waive any and all 
laws is exacerbated by IIRIRA's severe limitation on citizens' rights 
to challenge those waivers. Any claim must be filed within 60 days 
after the date of the action or decision made by the DHS Secretary (see 
Section 102(c)(B)), an extraordinarily short time period in which to 
become aware of the waiver, to determine what DHS construction actions 
are planned under the waiver, and to prepare a claim in connection with 
the waiver. Further, the only cause of action that the statute purports 
to allow is in Federal district court for a claim ``alleging a 
violation of the Constitution,'' Section 102(c)(A)--a draconian 
limitation that prevents Americans from being able to challenge the 
impact of DHS's actions on their rights under any statutory laws. 
Further impeding citizens' right to challenge is IIRIRA's requirement 
that appeals from a decision of a district court may only be had by 
filing a petition for certiorari with the U.S. Supreme Court--and as is 
well-known, each year the Supreme Court grants very, very few petitions 
for certiorari (e.g., only 1.2 percent of petitions filed in 2017 were 
granted according to the Harvard Law Review).\9\
---------------------------------------------------------------------------
    \9\ https://harvardlawreview.org/2017/11/supreme-court-2016-term-
statistics/.
---------------------------------------------------------------------------
    As a practical matter, what this means is that a wall may very well 
be built without any consideration of the laws that protect the 
interests of American citizens generally, and the Tohono O'odham Nation 
in particular, in our natural or cultural resources, archeological or 
sacred sites, economic resources, or the people and communities that 
live on the border. And while IIRIRA provides that DHS shall consult 
with Interior, Indian tribes, State and local governments, and property 
owners to minimize impacts on the environment, culture, commerce, and 
quality of life for those living near the border (see Section 
102(b)(1)(C)), the Federal Government appears to believe it need not 
comply with these directives, and accordingly such consultation either 
has not occurred or has been inadequate. Nevertheless, DHS's failure to 
engage in formal consultation with Tribes violates not just IIRIRA, but 
Executive Order No. 13175, ``Consultation and Coordination with Indian 
Tribal Governments'' (Nov. 6, 2000), and the DHS Tribal Consultation 
Policy (Sections II.B. and III.A), as well as the Federal Government's 
general trust obligation to respect Tribal sovereignty and engage with 
Tribes on a government-to-government basis.
    More than that, the manner in which IIRIRA is being implemented has 
stripped our Tribal government, other governments, and private citizens 
in border communities of significant Federal protections (as well as 
protections under State and other laws), and has militarized the border 
near our communities. No other segment of the United States population 
has been forced to surrender these legal rights and protections or live 
under these circumstances. The Tohono O'odham Nation strongly urges 
that it and its fellow border communities should be entitled to the 
same rights and protections as other United States citizens.
    For all these reasons, the Nation opposes the application of 
Section 102(c) waivers on its lands, and objects to the waiver 
authority in general as unacceptably broad and draconian.\10\ Indian 
Country stands with us--the National Congress of American Indians has 
adopted several resolutions that similarly oppose the waiver of 
Federal, State, and other laws under Section 102(c) of IIRIRA as 
``unnecessary, destructive, and in violation of the Federal obligation 
to consult with Indian Tribes on a government-to-government basis and 
to respect Tribal sovereignty and self-determination.'' NCAI Resolution 
ECWS 08-001; REN-08-002; ECWS 17-002; NCAI Resolution ECWS 18-001.
---------------------------------------------------------------------------
    \10\ See, e.g., Tohono O'odham Legislative Council Resolution No. 
17-053 (Feb. 7, 2017), No. 18-032 (Jan. 2018).
---------------------------------------------------------------------------
    The Nation's concerns have been heightened as DHS moves forward 
full steam ahead in constructing a border wall, despite the absence of 
Federal appropriations, circumventing the will of Congress by 
reprogramming billions of dollars appropriated for the Department of 
Defense without any evidence that such a wall will improve border 
security. IIRIRA is effectively facilitating the use of billions of 
taxpayer dollars appropriated for other purposes to be spent on a 
border wall that has not been adequately studied and that already is 
having significant, deleterious effects on the Nation's Reservation and 
our members, our cultural and natural resources, our archeological and 
sacred sites, and our economic interests.
    Litigation challenging DHS's waiver authority has to date been 
unsuccessful.\11\ Litigation challenging the reprogramming of funds is 
proceeding, but destruction of sacred sites and important habitat is 
continuing as that litigation winds its way through the process. For 
these reasons, we urge Congress to reconsider whether the IIRIRA waiver 
provision should remain in place, or whether additional safeguards are 
necessary to protect border Tribes like the Nation and other border 
communities whose rights and interests are being trampled by its 
application. We reiterate our support for legislation like H.R. 1232, 
which would retain IIRIRA's directive to construct border barriers but 
strike the waiver provision, as one appropriate response to the over 
breadth of the current waiver provision.
---------------------------------------------------------------------------
    \11\ See Center for Biological Diversity, et al. v. McAleenan, et 
al., Nos. 18-cv-0655-KBJ, Dkt. No. 37 (Sep. 4, 2019), 19-cv-2085-KBJ, 
Dkt. No. 21 (Sep. 13, 2019), cert. filed sub nom. Center for Biological 
Diversity et al. v. Wolf, No. 19-975; In re Border Infrastructure 
Envtl. Litig., 284 F. Supp. 3d 1092, 1103 (S.D. Cal.), cert. denied sub 
nom. Animal Legal Def. Fund v. Dep't of Homeland Sec., 139 S. Ct. 594 
(2018), aff'd, 915 F.3d 1213 (9th Cir. 2019); Defenders of Wildlife v. 
Chertoff, 527 F. Supp. 2d 119 (D.D.C. 2007), cert. denied, 554 U.S. 918 
(2008); Cty. of El Paso v. Chertoff, No. EP-08-CA-196-FM, 2008 WL 
4372693, at *1 (W.D. Tex. Aug. 29, 2008) (case challenging the 2008 
waiver that applies to the Nation's reservation).
---------------------------------------------------------------------------
    We ask that at a minimum, Congress consider requiring DHS to engage 
in a more thorough and substantive consultation and review process that 
is respectful of our government-to-government relationship, which 
recognizes the Tohono O'odham Nation's unique history and relationship 
to these lands, and which requires DHS to consider the information 
provided by the Nation before making any decision about what type of 
border security measures are most appropriate for our ancestral 
homelands. Although DHS has committed to ``formal, government-to-
government consultation with the Tohono O'odham Nation prior to taking 
actions that may impact the Tribe and its members in Arizona''\12\ as 
required by the law and its Tribal consultation policy, DHS currently 
is giving little more than lip service to consultation. In recent 
communications with the Nation relating to construction in the Nation's 
ancestral territory just outside of the Reservation, DHS has made clear 
that it will not actually consider any alternative type of border 
security measures or technology other than construction of a border 
wall, nor will it slow down its efforts to construct the wall to 
consider whether there are alternatives or mitigation measures.\13\ DHS 
should be required to consider and study the information provided by 
the Nation before imposing a ``one size fits all'' approach that is not 
cost-effective, not substantively effective, and causes real harm to 
our people.
---------------------------------------------------------------------------
    \12\ Letter from Acting CBP Commissioner Kevin K. McAleenan to 
Chairman Edward D. Manuel, Tohono O'odham Nation (Aug. 18, 2017) 
(attached).
    \13\ See, e.g., Letter from Chairman Ned Norris, Jr., Tohono 
O'odham Nation to Roy Villareal, Chief Patrol Agent, U.S. Border Patrol 
Tucson Sector Chief (Nov. 13, 2019); Letter from Roy Villareal, Chief 
Patrol Agent, U.S. Border Patrol Tucson Sector Chief to Chairman Ned 
Norris, Jr., Tohono O'odham Nation (Jan. 10, 2020) (attached).
---------------------------------------------------------------------------
                               conclusion
    We urge Congress to withdraw or at least better limit DHS's 
authority to unilaterally give itself waivers to circumvent every 
statute on the books. Its current waiver authority is dangerously 
broad, and has allowed DHS nearly unchallengeable, dictatorial-
authority to run roughshod over the rights of the Tohono O'odham Nation 
and every other border community in the United States. This kind of 
non-challengeable power is more appropriate to a totalitarian state, 
and does not belong among the statutes that are supposed to protect our 
freedoms--including from an over-reaching, intrusive Federal 
Government, making decisions in which we have no say and have no right 
to challenge.
    The Nation is deeply appreciative of the subcommittee's interest in 
our concerns about the IIRIRA wavier, and about the impact its 
application is having on our ability to protect our religious and 
cultural heritage, our way of life, and our environment. We welcome a 
continued dialog with you on these issues.

    Miss Rice. Thank you, Chairman Norris.
    I now recognize Mr. Chilton to summarize his statement for 
5 minutes.

           STATEMENT OF JIM CHILTON, PRIVATE CITIZEN

    Mr. Chilton. Thank you, Chairman Rice, and recognize 
Chairman Thompson, and the noble, honorable Congress people 
from the Republican side.
    My name is Jim Chilton. I am a fifth-generation rancher 
from Arivaca, Arizona. Arivaca is a small town approximately 55 
miles southwest of Tucson, Arizona. The ranch includes private 
property, State school trust lands, and Federal grazing 
permits. My pioneering ancestors drove cattle from Texas to 
Arizona territory in about 130 years ago.
    Can I have the photo?
    This photo is a map of our family ranch. Please notice that 
the southern end of the ranch is the international boundary, 
about--that is about 5 miles of the ranch.
    Next photo. This photo shows the international boundary, 
what the international boundary looks like on my ranch. It 
consists of a four-strand barbed wire fence. That is the photo 
on the bottom right.
    The next photo is, on the bottom left, is the wall where it 
ends 2\1/2\ miles west of Nogales, Arizona.
    The one on the right is me. Half of me is in Mexico and 
half of me is in Arizona. Even an 80-year-old rancher can crawl 
through, under, or over the border.
    The 25-mile open gap between the west end of the current 
wall near Nogales and the east end of the Buenos Aires National 
Wildlife Refuge wall is a major route for cartel drug and 
people smuggling.
    The following photograph, that is the one on the upper 
left. The photograph shows the United States Fish and Wildlife 
Service bollard-style wall at the Buenos Aires National Refuge. 
The service consistently advocates for wildlife connectivity 
with Mexico, except when they wanted one.
    The last--the long-outdated Border Patrol strategy is to 
focus on attempts of interdiction 10, 20, and over 100 miles 
inside the United States, rather than at the international 
boundary. The video that you see has been taken very recently 
on my ranch. We have some motion-activated cameras. Keep in 
mind, over 200 trails come through our ranch, and it is very 
hard to detect people.
    These people obviously have backpacks. Look at the big 
bales of what might be marijuana. They are coming through our 
ranch. The Tucson Station Border Patrol, with approximately 650 
agents and 27 agents per mile, is located 80 miles from the 
ranch border. Would a football team ever win a game if on 
defense the team lined up 10 yards behind the line of 
scrimmage?
    I thank you, and I will conclude with a passionate plea for 
the need for a border wall, fence, barrier, what all, whatever 
you call it. We must stop opioids coming into the Nation. We 
must have a border wall. It requires forward operation bases. 
Eighty miles from Tucson? No, we need forward operation bases 
on my ranch. So I advocate seriously that we need to secure the 
international boundary at the border.
    Thank you.
    [The prepared statement of Mr. Chilton follows:]
                   Prepared Statement of Jim Chilton
                           February 27, 2020
    My name is Jim Chilton. I am a 5th generation rancher from Arivaca, 
Arizona. Arivaca is a small rural town approximately 55 miles southwest 
of Tucson, Arizona. Our ranch is adjacent to the town and extends south 
to the international border with Mexico. The ranch includes private 
property, State School Trust lands and 3 Federal grazing permits in the 
Coronado National Forest. Our entire family, my wife of 56 years, our 2 
sons and their children, my brother and his wonderful family, are 
blessed to be able to preserve our western ranching customs, culture, 
and heritage dating back to our pioneering ancestors who drove cattle 
from Texas to Arizona Territory in the late 1800's. Our family has been 
in the cattle business in Arizona for about 130 years. We have a long-
term view of the necessity to be excellent stewards of the grasslands 
we carefully manage. We are honored to have received various valued 
awards for resource conservation and wildlife stewardship.
               chilton ranch and the international border
    Our family ranch is located adjacent to the United States-Mexico 
boundary in a corridor identified as among the most active for drug 
smuggling and human trafficking in the Nation. My comments generally 
relate specifically to the portion of the border south of our ranch 
extending from Nogales, AZ to Sasabe, AZ.
    The following is a map of our beef-producing family ranch. Please 
notice that the southern end of the eastern part of the ranch is the 
international boundary for about 5 miles. Mexico is just across the 
fence. Our ranch boundary goes north and west bordering 3 other 
ranches. Crossers on the western side go through our neighbors' grazing 
lands and then through our pastures.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The following photo shows what the international boundary looks 
like on the southern end of our ranch. It is not signed or marked and 
mainly consists of a four-strand barbed wire cattle fence. Obviously, 
there is no wall and you would never know it was the international 
border by viewing it.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    This is the U.S.-Mexico border. For approximately 25 miles, this is 
typical until it reaches the east end of the bollard-style modern wall 
built to protect the Buenos Aires National Wildlife Refuge. It is well-
known that the Mexican cartels use this 25-mile open door of rarely-
patrolled land with no border-paralleling road for their drug and 
people smuggling business.
    The following photo shows the end of the wall about 2.5 miles west 
of Nogales Arizona and the point where the wall becomes an old pasture 
fence.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Jim Chilton: half in the United States and half in Mexico! Even an 
80-year-young rancher can crawl under the current international border. 
As you can see, building an appropriate international border fence and 
road would be no challenge for American civil engineers. We laugh when 
we hear former officials say it's such difficult terrain that, ``no one 
in his right mind'' would try it.
                         border patrol strategy
    The long-out-dated Border Patrol strategy is to focus on attempts 
at interdiction of rural area crossers 10, 20, and over 100 miles 
inside the United States rather than at the international boundary. As 
a consequence, the Federal Government has de facto ceded hundreds of 
square miles of Arizona to the cartels. My neighbors and I strongly 
believe the Border Patrol must SECURE THE BORDER AT THE INTERNATIONAL 
BOUNDARY. The fact that drug packers, MS-13 gang members, and deported 
criminals desiring to re-enter the Nation walk through our neighbors' 
ranches and our ranch is dangerous for us and for our neighbors. We 
believe every nation has the sovereign right to secure and control its 
border and our Nation is not succeeding in exercising that right.
    We want to emphasize that we support and deeply appreciate the 
Border Patrol. The agents are polite, well-trained, and there is a 
sincere effort by the Sector Commander, his top officials, and Tucson 
Station Patrol Agent in Charge to listen to and try to address 
ranchers' border issues. We also appreciate many of the current Border 
Patrol efforts, including checkpoints, drug-sniffing dogs, and other 
strategies which certainly interdict highway traffic. We believe, 
however, these tactics are woefully insufficient to actually stem the 
tide of cartel operations flooding cross-country routes through border 
ranchlands of Arizona like ours.
    Why is the entire Tucson Station of the Border Patrol with 
approximately 650 officers operating from a location 80 miles and about 
3 hours from the international boundary at the southern end of our 
ranch? The Tucson Station has about 24 miles of the international 
boundary to secure, or 27 agents per mile. Currently, the Tucson Sector 
personnel report to work in downtown Tucson, check out weapons and 
vehicles and then drive approximately 3 hours to reach the border on 
our ranch. The waste of time and the high cost of each officer 
traveling to and from the border in his or her individual Border Patrol 
vehicle are outrageous.
    National security demands that drug traffickers, terrorists, and 
previously-deported people be prevented from entering the United States 
at the border. Asylum seekers and work seekers need to cross at the 
legal Ports of Entry. Currently, on our ranch all of the above often 
travel cross-country 10 to 20 miles before the Border Patrol even 
attempts to apprehend them. Why? Because the Border Patrol is not based 
at the border; old, slow, dirt roads have not been improved to the 
ranchland borders, and communications fail in the borderlands. We can 
work all day on the ranch and not encounter Border Patrol anywhere near 
the border.
    Why is there a huge Border Patrol station located in Casa Grande 
when the city is located approximately 130 miles from the international 
boundary? Certainly we are pleased that thousands of cartel drug 
packers and cartel-led border crossers are arrested in Pinal County 
every year. However, we question the current strategy that lets these 
undocumented persons walk through our ranch or through the Tohono 
O'odham Reservation to the west of us to disperse so far into Arizona. 
This strategy allows, we believe, more than half of the crossers to 
escape detection. This capture percent is even deemed too generous by 
Border Patrol officers with whom we speak ``off the record.'' Would a 
football team ever win a game if, on defense, the team lined up 10 
yards behind the line of scrimmage?
                need to secure the border at the border
    Wouldn't it make sense to have a wall TO SECURE THE BORDER AT THE 
BORDER where linear miles can be effectively patrolled rather than 
leaving hundreds of square miles of southern Arizona crossed by a web 
of cartel trails and routes? Of course, square miles are more difficult 
and costly to patrol than linear miles!! Wouldn't it be enormously more 
effective to have patrolled roads along a bollard-style wall (deemed 
most appropriate by the Border Patrol) together with 21st Century 
communications, cameras, and sensors plus 24/7 actual presence of the 
Border Patrol? Isn't it called the ``Border Patrol'' and not the 
``Interior Patrol? Wouldn't their presence at the border be a much 
greater deterrent to cartel offensives than the current backfield game 
plan?
    There are tremendous advantages to closing the gap in the wall 
between Nogales and Sasabe and then continuing construction to the east 
end of the wall at Yuma. To achieve reasonable border control, and 
ensure that rural Arizona is not the ``sacrificed route,'' effective 
structures and strategies must also be implemented all the way across 
Arizona's borderlands. Most importantly, the bollard-style fence must 
be conscientiously patrolled and must include forward operation bases, 
roads paralleling the boundary and surveillance technology. Congress 
needs to appropriate necessary funds to allow for the completion of the 
wall, roads, and forward operation bases.
    A retiring high-level Border Patrol official sat in our living room 
with all our neighbor ranchers and stated that ``electronic 
surveillance alone only tells me what I missed.'' He added, `` . . . we 
cannot respond in actionable time.'' Any policy of reliance upon 
information on which no effective deterrent action can be taken is 
virtually useless. That perspective allows--even encourages and abets--
the current abuse, abandonment, rape, mutilation, and murder of would-
be workers who are told by cartel operatives that this is the best 
route. They pay, suffer, and are often used as decoys while the drug 
loads are routed around a different canyon or trail.
            advantages of securing the border at the border
    The following are some of the advantages to completing an 
effective, bollard-style fence with adequate patrolling and appropriate 
technology and forward operating bases:
    First, U.S. Government Accountability Office and Judicial Watch 
have reported that people crossing the open border sections have been 
arrested from terrorist-sponsoring countries. How many crossers from 
terrorist nations actually got through and where are they now? How many 
successful crossers from the Middle East are connected to ISIS?
    Second, it is outrageous that Mexican cartel scouts with satellite 
phones and other military-grade equipment are free to occupy 
strategically-selected hilltops for dozens of miles inside Arizona 
including on our ranch. As a consequence, the cartel scouts know where 
the Border Patrol is at all times so they can carefully guide drug 
packers--and people whom know they are not eligible for asylum--through 
the wooded canyons and along hundreds of smuggler trails on our 
ranches. Border Patrol officers apprehend fewer than half of the 
foreign migrants and smugglers according to national Border Patrol 
Council Vice President, Art del Cueto. Interdiction at the border would 
stop the occupation of Arizona border ranchlands by these cartel 
operatives.
    Third, environmental costs of the current failure to effectively 
stop the flood of crossers are well-documented. Much of the unfenced 
minimally-patrolled Arizona border area includes National forests, 
conservation areas, monuments, and wildernesses. These are exactly the 
open routes most used by the cartel-led operations. The Border Patrol 
reported at a meeting we attended that undocumented crossers have left 
a reported average of 8.5 pounds of trash apiece on these lands. It is 
estimated that over 25,000 tons of garbage have been dropped by 
crossers in the Tucson Sector alone since 1992. Just since June 2007 
until March 2019 another 463,000 pounds of trash was collected along 
the Arizona border according to the Arizona Department of Environmental 
Quality's Border Trash report. Additionally, just as of 2010, the Organ 
Pipe Cactus National Monument documented approximately 2,553 miles of 
wildcat roads and trails just on their portion of the border with 
Mexico.
    Fourth, there are intolerable human tragedies and abuses faced by 
work-seeking border crossers, especially women. Work-seekers currently 
have no feasible option but to cross in the hands of the cartel. It is 
reported that over 2,500 border crossers have died just in the Tucson 
Border Patrol Sector since 1990. Horrific human tragedies could be 
avoided by securing the border at the border and implementing a 
feasible, simplified, e-verifiable worker documentation program to 
provide a legal and safe alternative for needed workers.
    Fifth, we have been burglarized twice by south-bound drug packers 
who, after depositing their drug load at GPS sites or safe houses, 
stole laptops, cameras, firearms, including historic pieces, and other 
valuable items on their return to Mexico. This is a typical situation 
for those of us near the border. Ranchers in the border area cannot 
leave their houses unguarded even for a few hours since their homes and 
ranch buildings are often broken into if someone is not on guard duty. 
It can be hours before law enforcement can respond to rural calls.
    Sixth, Arizona borderland residents, ranchers, and farmers have 
suffered hundreds of millions of dollars in property damage and 
personal loss due to major forest fires set intentionally or 
accidentally by illegal crossers. The human and property costs of these 
fires, like the Monument Fire, the Murphy Complex Fire, Chiricahua 
Fire, and the Horseshoe Fires must also be figured into the cost of NOT 
securing the border at the border. We have estimated that U.S. Forest 
Service costs in 1 year to fight fires caused by border crossers just 
in Arizona borderlands were about $600 million.
    Seventh, another cost of inaction never calculated by those who 
decry the ``expense'' of effective wall and border protection, is the 
financial and emotional burden placed on ranchers living in Arizona 
border counties. In addition to suffering losses from home invasions 
and burglaries, we shell out thousands of dollars each year in constant 
fence and water line repair and we and our cowboys all work armed. The 
additional, unquantifiable emotional cost to our families is summarized 
by noting we are all very much aware of what happened to Sue Krentz's 
husband Rob when he went out to check his ranch waters and was killed 
(including his dog) by a drug packer who then escaped into Mexico.
    Eighth, we have heard just this week that the Border Patrol has 
picked up Chinese crossers coming through our area. The possibility of 
increasing numbers of undocumented persons, specifically escaping areas 
where they may have been exposed to coronavirus, is a new concern.
    Finally, what percent of the opioids flooding this country comes 
through rural trails? We know from our hidden cameras that marijuana 
packs were the dominant VISIBLE drug in prior years, but we have heard 
that much higher-value, lighter-to-pack fentanyl, heroin, cocaine, and 
other drugs are showing up in rural apprehensions now that high-tech 
surveillance is more effective at the Ports of Entry. What is the cost 
to America of increases in cartel use of open routes like the ones in 
our area for hard drug importation?
    To effectively secure the border, the Border Patrol needs to build 
the wall and be able to construct or improve roads, build helicopter 
pads and place forward operating bases at or very near to the border. 
Construction needs to be freed of the impediments created by Federal 
environmental laws which chiefly benefit the cartels, not the wildlife, 
in Arizona borderlands. Every day that the U.S. border remains 
unsecured is another opportunity to allow all of the negative 
consequences that are so real to borderland ranchers and to this Nation 
at the present.
                     the wall, humans, and wildlife
    In spite of the environmental, financial, and security impacts on 
our ranch, we have taken action to help prevent deaths of any of the 
crossers. I have installed safe-water drinking fountains on 29 sites 
where I have my 22 wells and water lines. We don't want anyone to die 
of thirst.
    Wildlife genetic diversity on both sides of the border can be 
achieved along with border security by legally transporting animals as 
scientifically deemed essential. Large mammals can be transported with 
safe capture to promote genetic diversity while birds can fly over and 
small animals and reptiles can easily slip through the bollard-style 
wall. In addition, American engineers can create wildlife-friendly, 
effectively-managed passages at some parts of the wall to facilitate 
wildlife connectivity with Mexico. Keep in mind the irony that the 
Buenos Aires National Wildlife Refuge sought and obtained a bollard-
style border fence and border-paralleling road because they did not 
want the danger, the wildcat roads, the trash, and the fires nor ``Wild 
Life Connectivity'' on their border!! We neighbor them and we get all 
of the above re-routed onto our ranches! First, tear down the bollard-
style wall with its patrol road on our Refuge neighbor--then talk to us 
about ``connectivity.''
    The following photograph shows the U.S. Fish and Wildlife Service 
bollard-style wall and adjacent patrol road at the Buenos Aires 
National Wildlife Refuge along its border with Mexico--it adjoins the 
old 4-strand wire fence on our neighbor's ranch. The refuge did not 
prioritize a concern for wildlife connectivity.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    How can it be acceptable that residents of rural southern Arizona 
are not accorded the same protections provided to residents of the rest 
of the country? Our homes and ranches and our daily environment is 
treated as a no-man's land exposed, by strategic Federal choice, to 
armed foreign trespassers. The current strategy of minimal Border 
Patrol presence along large segments of the rural Arizona border leaves 
us unprotected and assures the continued flow of drugs, the abuse of 
migrants, and the trashing of border lands. None of this, including 
wildcat roads, trash, wild fires, human trampling, conflicts between 
drug packers and gang rip crews, could possibly be deemed favorable for 
wildlife. Persons opposing interdiction of drugs and undocumented 
crossers loudly cite the costs of securing the border and omit all 
mention of the human, environmental, and security costs of NOT securing 
it.
    All citizens have the right to petition their Government regarding 
their grievances. Attached are petitions by all of the Arivaca area 
ranchers and by the Pima Natural Resource Conservation District 
advocating the need to replace the Tucson Station 14-mile 4-strand 
barbed wire cattle fence with the construction of a wall, forward 
operation bases, and technology to secure the international border at 
the border in our area.
              ATTACHMENT.--Border Ranchers--Tucson Station
Box 423, 17691 W. Chilton Ranch Road, Arivaca, AZ 85601
520-398-9194
    Whereas, a one of the most active drug smuggling and human 
trafficking corridors in the United States is the international 
boundary between Nogales and Sasabe, Arizona;
    Whereas, 25 miles along the border area south of Arivaca is only 
marked by an old four-strand barbed wire cattle fence;
    Whereas, the Sinaloa Cartel has control of this 25-mile 
international boundary and of the thousands of square miles of 
minimally-patrolled ranchland adjacent to it inside the United States, 
due to lack of adequate border infrastructure, the Border Patrol has 
been largely restricted to a ``Defense-in-Depth'' strategy which is 
inefficient due to rough terrain and inadequate access and allows the 
presence of well-equipped cartel scouts on top of our mountains to 
successfully direct drug and human trafficking:
    Whereas, although the Tucson Station Patrol Agent-in-Charge and 
Border Patrol agents try their best to do their job, the lack of access 
and infrastructure, cartel scout presence, and rough terrain and 
inefficient ``Defense-in-Depth'' strategy creates a de facto ``no man's 
land'' in which border ranchers live and work;
    Whereas, the national Border Patrol Council Vice President, Art del 
Cueto, has asserted on national television that under the present 
situation, no more than 50 percent of illegal crossers are apprehended;
    Whereas, Border Patrol agents are headquartered in Tucson, 80 miles 
and 3 hours from the border on our ranches and there are no roads 
paralleling the border and no efficient north-south access for the 
Border Patrol to respond to incursions; and
    Whereas, current ``defense-in-depth'' strategy means the Tucson 
Station Border Patrol agents are dispersed across the 4,000 square 
miles of area of responsibility and are operating in the ``backfield'' 
instead of operating on the 25 linear miles of the actual border;
    Therefore be it resolved, Border ranchers petition our government 
to construct an adequate security barrier such as a Bollard-style fence 
at the border, good all-weather, well-maintained roads leading to the 
border and along it, adequate, modern flood gates at water crossings, 
appropriate surveillance technology to monitor Border Patrol personnel 
and border status, air mobile support, and reliable communications for 
Border Patrol agents to call for back-up, and forward operations bases 
near the border barrier to effectively secure the international 
boundary between Nogales and Sasabe, Arizona.
                                               Jim Chilton,
                                                     Chilton Ranch.
                                                   Tom Kay,
                                                    Jarillas Ranch.
                                             John R. Smith,
                                                     Arivaca Ranch.
                                                  Ted Noon,
                                                  Oro Blanco Ranch.
                                           Lowell Robinson,
                                               Tres Bellotas Ranch.
                                 ______
                                 
        ATTACHMENT.--Pima Natural Resource Conservation District
Pima Center for Conservation Education, Inc., NRCS Plant Materials 
        Center, 3241 N. Romero Road, Tucson, AZ 85705
  resolution by the board of supervisors of the pima natural resource 
                     conservation district (pnrcd)
    The Pima Natural Resource Conservation District (PNRCD, Pima 
County, Arizona) petitions Arizona Governor Douglas Ducey and President 
Donald Trump to take action according to your responsibilities to 
enable completion of a fence/wall and accompanying essential 
infrastructure, as described below, along the section of the 
international boundary which is the responsibility of the Tucson 
Station of the United States Border Patrol.
    Whereas, one of the major current drug smuggling and human 
trafficking corridors in the Nation is the international boundary south 
of Arivaca in the Tucson Station of the Border Patrol, and whereas, 
this portion of the international boundary is only marked by an old 4-
strand barbed wire cattle fence;
    Whereas, the Sinaloa Cartel has well-equipped cartel scouts on top 
of mountains on or near PNRCD cooperators' farms and ranches to 
successfully direct drug and human trafficking and evade interdiction;
    Whereas, the national Border Patrol Council Vice President, Art del 
Cueto, has asserted on national television that under the present 
situation, no more than 50 percent of illegal crossers are apprehended;
    Whereas, Border Patrol agents are headquartered in Tucson, 80 miles 
and 3 hours from major cartel border incursion routes; and, whereas 
there are no roads paralleling the border in this area and there is no 
efficient north-south access for the Border Patrol to respond to 
incursions;
    Therefore be it resolved, that we, the Conservation District 
Supervisors, out of heightened concern for the impact of the current 
border situation on the natural resources of our county, petition the 
State and Federal Government to build proper and essential roads along 
the international boundary and to improve and complete needed north-
south border access roads to wrest control of these lands from the 
Sinaloa and other cartels whose actions are creating wildcat roads, 
mountains of discarded trash, and dangerous situations for legal 
resource users.
    Therefore be it further resolved, Pima Natural Resource 
Conservation District petitions our Government to prioritize 
construction of an adequate security fence/wall at the border, good 
all-weather roads as described above, and forward operations bases near 
the border barrier to effectively secure the portion of the 
international boundary which is the responsibility of the Tucson 
Station of the United States Border Patrol.

    Miss Rice. Thank you, Mr. Chilton.
    I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    If I can start with you, Mr. Anzaldua. So a lot of 
Americans have never been down to the border. They don't know 
exactly what the geography is, what the distance is between the 
river and, you know, what the situation is. So if you could 
just explain more, like, where the wall is proposed to go. 
Would it actually prevent people who are trying to come to the 
United States from touching down on American soil? What effect 
would it have on your ability to continue to be able to have--
to rely on the river and--as a water supply, et cetera?
    Mr. Anzaldua. Well, for one thing----
    Miss Rice. Turn your microphone on.
    Mr. Anzaldua. For one thing, the river where we have our 
land is over 200 yards wide. So if the Border Patrol cannot 
catch somebody in that 200-yard-wide area, they have a problem. 
Besides that, we have--on the river we have patrols, patrols 
from the Border Patrol on the river, the Department of Public 
Safety. Texas Department of Public Safety has a gunboat. I say 
gunboat because they got machine guns in the front and machine 
guns in the back. You have the Coast Guard patrolling and 
sometimes the Mexican Navy. Then you have air patrols, which is 
the National Guard. You have the Border Patrol. You have the 
Coast Guard. You have the Texas Department of Public Safety. 
You have the Homeland Security.
    On the ground, we have the local sheriff, the local 
constables, the local city police, the Border Patrol, the 
Department of Public Safety. We have game wardens from the 
State, game wardens--they are falling all over--game wardens 
from the Federal Government. They are falling all over 
themselves. If they can't catch anybody coming in a 200-yard 
wide river, they got a problem, I would say.
    One thing I might also add. I believe, this is my personal 
feeling, because I worked for the Government and I have been a 
supervisor. In my opinion, the Border Patrol has a problem with 
field supervision. They need to supervise their agents on the 
field better, because we see a lot of them on texting or we see 
a lot of them asleep in their cars. You know, we see all this 
stuff.
    So there is actually no need for a border wall, because the 
wall is not going to solve the problem that we really have, and 
the problem that we really have is demand for drugs in the 
United States and demand for illegal immigration.
    What is happening in Mexico is the Mexican cartels are 
fighting over the money that comes from the United States and 
goes over there. It is no different than what we had here in 
the 1930's with Al Capone. They were doing the same thing. They 
were killing each other over the money, and this is exactly 
what is happening in the Southern Border.
    So the real problem is here in the United States, and this 
is what needs to be addressed. The real problem needs to be 
addressed, and the border wall doesn't solve that problem.
    Miss Rice. Sir, thank you.
    I also want to thank for your service to our country, both 
as a veteran and as a former Customs officer. Given your 
background and your experience on the border, you know better 
than most that border security is a nuanced issue, which you 
just laid out.
    If I could ask Chairman Norris, in May 2019, DHS announced 
it was waiving Federal laws such as the Archeological Resources 
Protection Act and the National Historic Preservation Act to 
construct part of the border wall through Organ Pipe Cactus 
National Monument and numerous other protected areas. Each time 
DHS uses this waiver authority, they state that it coordinates 
and consults with interested stakeholders to ensure that 
potential impacts to the cultural and historic resources are 
analyzed and minimized.
    As an archeological environmental stakeholder to these 
various areas, what has been the extent of DHS's coordination 
and/or consultation with you or representatives from the Nation 
on potential impacts that border barrier construction will 
have?
    Mr. Norris. Chairwoman Rice, thank you for the question. I 
will say that I have 2 of my 22 legislative council members 
with me today. I will say that there has been a development of 
a history of working relationships between my Tribal leadership 
and the local Border Patrol office.
    More specifically with respect to the ancestral sacred 
sites, lands of my people, there has been little to none 
consultation from a government-to-government level with the 
Tribal Nation's leadership. There may have been meetings. There 
may have been conversations, but, in our opinion, when you look 
at the requirement for consult--government-to-government 
consultation, that pretty much does not exist and has never 
occurred.
    Miss Rice. OK. Ms. Alvarez, very quickly, your testimony 
was very emotional. I mean, when you--it is so important for 
the American people to hear someone like you who has lived 
where you have lived for generations. Your family, your 
children are there, your grandchildren are there. To have the 
Government come in and trivialize that history is just really 
unbelievable.
    So if you could just expound a little bit more on what it 
is like. I mean, I don't know if anyone on this panel can 
possibly understand what it is like to have the Government come 
in and say, we are taking what is yours and we are going to 
give you $100 for it.
    Ms. Alvarez. That really infuriates me. It makes me upset 
because here is somebody who has never been to my property, 
that more than likely has never been to the Rio Grande Valley, 
come and say you need a wall in back of your house, over a so-
called invasion or drugs that were coming in 20 years ago that 
are not coming in now, because the biggest drug busts that have 
happened have happened in our ports of entry, not by the Rio 
Grande River.
    You know, the Government really needs to analyze the 
situation. You know, this is somebody's campaign promise. I am 
not willing to sacrifice my home over a campaign promise which, 
by the way, is getting very close, and that is why all these 
laws have been waived and so. But this upsets me, because I 
have no power. How can I compete with somebody that has the 
right to waive all these laws that have been waived? It just--
my hands are tied right now.
    Miss Rice. Yes, it is--that is very powerful. Thank you all 
for your testimony.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from Louisiana, Mr. Higgins, for questions.
    Mr. Higgins. Thank you, Madam Chair.
    Let me say it is just--it is just so significant that we 
are meeting today in this hearing, and this is a serious topic, 
man. There is no American here on either side that wants to, 
you know, wants to interfere with the lives of American 
citizens. In fact, that is why we are meeting and why we are 
having deep debate and consultation with each other about 
securing our border, because you've seen the videos. The 
cartels are running serious poison into our country. They are 
killing many Americans. They are certainly interfering with the 
lives of Americans across the country from sea to shining sea.
    Yet the Honorable Mr. Norris, let me say I support deep 
consultation with Tribal lands. I have studied maps of your 
Nation, sir, and I recognize that it, for many, many 
generations, crossed the border, and so your Nation exists on 
both sides of the border. This should be of particular concern 
for the U.S. Government, and I support very deep consultations 
with you.
    My heart is touched by the story of our panelists regarding 
the personal impact. I also see as a--I was a cop for 12 years. 
I worked a lot of drug cases, man. I worked many, many deaths, 
and it has gotten worse, much worse over the last decade.
    Mr. Chilton, my understanding is your home is 9\1/2\ miles 
inside the border. Is that correct, sir?
    Mr. Chilton. Nine-and-a-half miles from one end of the 
ranch to the other, over very miserable roads.
    Mr. Higgins. At your home, have you ever seen gang members 
at your home, come to your house?
    Mr. Chilton. Yes. We are able to recognize gang members by 
their tattoos. In fact, MS-13 gang members have showed up at 
our house and, thankfully, another group of MS-13 gang members 
are--have been apprehended near our house.
    Mr. Higgins. Your wife, sir, does she--you know, we are 
talking about the feelings of Americans. Is your wife 
frightened when she is alone at home?
    Mr. Chilton. My wife is seriously concerned. She knows how 
to use a gun, and we have guns everywhere to protect ourselves. 
She----
    Mr. Higgins. In the remote location of your particular 
ranch, what you are advocating for is a construction of, 
essentially, 25 miles of enhanced physical barrier. Am I 
correct in assessing your----
    Mr. Chilton. You are absolutely correct. We need to fill 
the gap, the 25-mile gap.
    Mr. Higgins. In this gap, in this gap, would you describe, 
based upon your own observations--as my understanding is you 
are a fifth-generation resident there, so you watch things 
change. There was a time when we wouldn't have called for 
enhanced physical barrier there, but things have changed with 
the cartels over the decades.
    Would you describe the methods of operation that the 
cartels are using that you have observed regarding asylum 
seekers and drug runners coordinating their crossings? Will you 
share that with America, please?
    Mr. Chilton. We have never seen on our ranch asylum 
seekers. The people coming across our ranch are either drug 
packers or they are MS-13s or people who have been deported, 
coming back through the ranch and being led by cartel scouts on 
our mountains. These are foreigners sitting on our mountains 
with high grade----
    Mr. Higgins. Where--when these crossings, these drug 
crossings, these cartel crossings coming through the gap, the 
25-mile gap, where is Border Patrol commonly at that time? What 
are they busy doing?
    Mr. Chilton. Border Patrol is in Tucson. So they come out 
about halfway, and so most of my ranch is in a no-man's-land 
controlled by the Sinaloa Cartel scouts on the mountains.
    Mr. Higgins. Yes, sir. I have one question about the 
environment, if the Chairwoman will indulge. Have you seen 
environmental impacts on your ranch by illegal crossings and 
drug smugglers crossing through?
    Mr. Chilton. Very definitely. I have calculated that there 
has been over 25,000 tons of garbage dropped by crossers in the 
Tucson sector and on our ranch, not--I don't know how many tons 
have been dropped----
    Mr. Higgins. What about fires?
    Mr. Chilton. Fires are the big, big problem. I have 
estimated that in 2011, the Government spent over $600 million 
putting out fires, started either accidentally or on purpose by 
cartel border crossers.
    Mr. Higgins. I thank you for the response.
    Madam Chair, I yield back my time.
    Miss Rice. Thank you.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who were present at 
the start of the hearing based on seniority on the 
subcommittee, alternating between Majority and Minority. Those 
Members coming in later will be recognized in the order of 
their arrival.
    OK. The Chair will now recognize the gentle--what?
    OK. Sorry for the delay there.
    The Chair now recognizes for 5 minutes the gentlewoman from 
New Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you, Chairwoman Rice. Thank you all 
for being here to discuss this important issue.
    I represent a district that covers about 180 miles of U.S.-
Mexico border. Unfortunately, the DHS has fast-tracked 
expensive border wall construction projects in rural and remote 
areas in my district which would be much more efficiently and 
effectively secured through investments to fix Border Patrol's 
attrition challenges and to enhance our agents' detection and 
surveillance technology. However, the Department continues to 
prioritize fast-tracking border wall construction projects 
through its waiver authority that allows it to waive dozens of 
local, State, and Federal laws.
    I am concerned that expediting border barrier projects by 
circumventing dozens of laws that we carefully crafted and have 
enacted for decades will have unintended consequences at our 
border and especially on border communities, such as lasting 
infrastructure damage due to flooding. For this reason, I 
support and voted in favor of Chairwoman Rice's legislation to 
repeal the Department's waiver authority.
    Chairman Norris, in your testimony, you noted that the 
Tohono O'odham Nation spends, on average, $3 million of its own 
Tribal funds each year on border security and enforcement. I 
think folks at the table and here at the dais share a goal for 
border security. Rather than investing in miles of wall on the 
Tohono O'odham Nation land, can you provide alternatives to 
what the DHS could do to enhance border security along the 
Southern Border?
    Mr. Norris. Thank you, Congresswoman, for that question. As 
I mentioned earlier, we have established a long working 
relationship with the Border Patrol. My Nation has, in addition 
to the areas that I identified, have allowed the Border Patrol 
to establish resources within our Tribal Nation to address this 
issue. We continue to discuss other options that might be 
available for that purpose. So without trying to get into every 
single area that we have allowed the Border Patrol to enforce 
its presence and security, we have also allowed our law 
enforcement officers to have provided assistance to Border 
Patrol whenever assistance is necessary.
    So it is that time when resources that normally would be 
utilized for the enforcement of law enforcement on our Nation's 
members are now used to assist the United States' efforts to 
secure the border along with the Border Patrol.
    In addition to that, the--whenever there is a migrant that 
has succumbed by exposure, the person or persons are taken to 
the Tribal hospital, to the Indian Health Service Hospital on 
our Tribal land and are seen by the doctors there and provided 
medical care, medical attention.
    Ms. Torres Small. Thank you, Chairman Norris.
    Mr. Anzaldua, in 2008, a barrier that DHS built pursuant to 
waiver authority resulted in flooding damages of up to $8 
million in Nogales, Arizona. Are any of you, and specifically 
you, worried that by circumventing long-standing environmental 
laws, your communities and private properties will be impacted 
by unintended flooding?
    Mr. Anzaldua. Right now, yes. With that new wall that was 
built on the riverbank by the private group, if you have been 
around the Rio Grande River, you know that there is a lot of 
debris floating down the river during a major flood. 
Eventually, the debris will cling to that wall, and it will be 
on both sides of the wall, because there will be water on both 
sides of the wall. It will be a problem for our property 
because since it is in the bend of the river, it is going to--
and already they have cleared the banks. So erosion is a real 
threat there. It is going to cut into our property. I would say 
that that is probably going to cost us several acres of land, 
in addition to the Government wall.
    Ms. Torres Small. Thank you, Mr. Anzaldua.
    Last, I am a hunter, and I know that some of the best 
conservationists are hunters, because we pay attention to 
migration patterns, we pay attention to herd health. So going 
back to you Chairman Norris, can you please explain how the 
waiving of environmental laws may impact wildlife that live on 
your Tribe's land?
    Mr. Norris. There are a significant number of wildlife that 
enjoy the ability to enter and exit what is now the 
international border. The longhorn sheep, the deer, the 
bobcats, you know, the animals, the wildlife that is from 
there. A wall, a 30-foot wall makes it impossible for that to 
be able to continue for the wildlife, would be able to continue 
to transfer or to travel in between the international border 
and the United States. So that would have a negative impact on 
their ability to continue what has been historically their area 
to migrate.
    Ms. Torres Small. Thank you, Chairman Norris. My time has 
expired.
    Miss Rice. Thank you, Ms. Torres Small.
    The Chair now recognizes the gentlewoman from Arizona, Mrs. 
Lesko.
    Mrs. Lesko. Thank you, Madam Chairman.
    Thank you to all of you for coming here today from Texas 
and Arizona. I am happy to have 2 Arizona witnesses here today.
    As the Arizonians know, and probably the Texans know, in 
Arizona, this is a huge issue. It has been for years. Securing 
the border--you know, when I run for office or other people run 
for office, we do polling, right? In Arizona, this is by far 
the most important issue to Arizona is securing the border, 
because it impacts us.
    I am also a huge proponent of private property rights, 
though, as well. So I--this interests me a lot because it is a 
conflict, right? You are trying to secure the border, but you 
also want to protect private property. Of course, Native 
American Indian or Tribe land is important, especially if you 
have members on both sides of the border and you want to go 
back and forth.
    So I have talked--I heard Mr. Chilton talk about the--what 
is happening on his land, and he has lots of land, and he has 
been there a long time and his family has been there a long 
time. I think in your testimony, your written testimony, you 
said you put out water for the immigrants as well so that they 
don't die on your property. So I am sure you care. You care 
about humans. But we also--you care about securing our border.
    So I guess we have to have a balanced approach. Can you 
tell me, Mr. Chilton, more about these scouts? Because when I 
went down to the border, I saw this barbed wire fence like you 
have on your ranch. I mean, I could climb over it. Anybody 
could climb over it, under it, whatever. You could just cut 
right through it. It is not much of a fence at all. What the 
Border Protection Officer said to me was that they have these 
scouts, like you said, in the mountains and they help the 
cartels. They say, OK, you know, they are over here. The Border 
Protection Officers are over here, so they tell them to go a 
different route. Or they say, oh, they are busy over here. 
Actually, they have people that they send over there so that 
the Border Protection is busy over here so they could bring 
over drugs over here.
    What has the Border Protection Officer said to you? Can 
they do anything about these scouts? Because they told me they 
need some legislation. They can't do anything about these 
cartel scouts. What have you heard?
    Mr. Chilton. I have heard exactly the same thing. There is 
no law that the Federal Government can use to apprehend and 
persecute--prosecute a cartel scout sitting on the mountain, 
even though he has a satellite phone, night vision binoculars, 
and a rolled-down solar pack. The only way for the Government 
to get rid of the cartel scouts who can see for 5 or 10 miles 
is to bring in 2 helicopters; 1 to pin the scout down on top of 
the mountain, and the other 1 to repel officers to try to 
apprehend. It is a real serious problem. Foreigners sitting on 
our mountains guiding the drugs through. It is awful.
    Mrs. Lesko. This whole thing is awful. You had a friend, 
Robert Krentz, who was killed by a drug smuggler. You know, 
this--I just feel bad for you having to have all this 
protection on your property.
    I do have a question for Chairman Norris as well. Chairman 
Norris, have you talked--has the Federal Government talked to 
you at all about coming up with some kind of solution to 
perhaps build the fence, wall, whatever you want to call it, 
but also have a way for your members to expediently go back and 
forth between Mexico and Arizona? Has that come up? Is there 
any discussion on that?
    Mr. Norris. Congresswoman, much of the activity for 
building the wall has been to the east and to the west of the 
62 miles of international border. We have continuously asked 
what are the plans for the building of the wall on our Members, 
I am hoping that we truly can--my Democratic colleagues and 
Republican members--can try to come up with a balanced approach 
here. I know this has been asked for for years. But this really 
is a problem. When we are talking about--I know some people 
say, well, this is just a campaign promise. Well, the reason it 
is a campaign promise is because people care about it. I mean, 
in Arizona, it is the No. 1 top polling thing. So the Governor 
of Arizona talked about border security. You know, of course, 
the President, the President got elected, and one of his big 
issues was border security, because people care about border 
security. They want the Nation protected. So it is not just 
some mere campaign promise. Campaign promises are made because 
of what people want. So we really have to balance this.
    I think we need to work on legislation to get the root of 
the problem, you know, because that would solve a lot of this 
problem. So we have talked about this before. I hope some day 
that we can work together to get to the root of the problem, 
which is stop incentivizing people to come into, you know, 
these loose laws that we have. I have 6 bills that I have 
introduced to try to mitigate some of the people crossing our 
border, and unfortunately, Democratic Chairman Nadler have not 
heard one of them. It is unfortunate.
    Thank you. I yield back.
    Miss Rice. Thank you, Mrs. Lesko.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Chairman Thompson.
    Mr. Thompson. Thank you very much, Madam Chair.
    It never ceases to amaze me how I hear my colleagues talk 
about how they are for something, but they are against it, 
because you got to stand for something. If we can fly people to 
the Moon and back, surely we can see people trying to cross the 
border. We can move assets to that area. We can do a lot of 
things other than build a $20-million-a-mile wall that all I 
need is a fence, a ladder a foot taller than that wall and I am 
over the wall. It is a symbol.
    Our current President was very clear. Sure, he wanted a 
wall, but he said Mexico was going to pay for it. Well, the 
American taxpayers are paying for it. If the American taxpayers 
are paying for a political statement, then we have the right to 
review it. In paying for it, we are cutting out significant 
opportunities in other areas. Technology is a way forward.
    If it is a scout, Mr. Chilton, he has to be talking to 
somebody. We can monitor that satellite phone, who he is 
talking to, telling them where to go. We have assets, and we 
can move those assets in those directions. There are a lot of 
things we can do other than to disturb Tribal lands and areas 
just because we are the U.S. Government. We have to respect our 
laws as a Nation and respect the people who live in this 
country.
    So I am concerned that the application of technology is not 
being used to the extent that it could be to protect us. If we 
can see individuals hundreds and hundreds of miles away, 
walking or traveling to the border, and we have assets, whether 
they are motorized or air, to be there when they get there, 
then that is what we need to do. There is no documented proof 
that that wall will reduce immigration.
    Again, my ancestors came to this country in the belly of a 
ship, but I'm here now. But I respect other oppressed people 
who want to come to the United States for a better way of life. 
I think we are obligated fundamentally to make sure that we 
don't in the eyes of trying to, ``protect our country,'' do 
away with the fundamental principles by which we were 
established as a Nation. I'm concerned about it. We have spent 
billions of dollars.
    Mr. Anzaldua--I hope I get it right--I am going to look and 
see how a private wall can be built on land beyond your land 
and whether or not all the requirements are being met. I am 
just not certain those kind of things are bad. I appreciate 
your tenure working for the Patrol. You have first-hand 
knowledge.
    Most of the people that I talk to who live along the 
Southern Border have a relationship with Mexico and its people. 
The majority of those relationships are positive. Now, we all--
I have issues with people I live in my little small town with, 
but I don't build a wall; I engage them.
    So I would like for Chief Norris to explain how as chief 
what is being proposed in coming through your land is doing for 
the people you represent.
    Mr. Norris. Mr. Chairman, thank you for that question. What 
it is doing is it is having--definitely going to have a 
negative impact on the ability for my people to be able to 
assume--to deliver the resources that my Tribe offers to its 
Tribal citizens. It is also going to be difficult for my people 
to be able to do, as you said, just as you explained, 
communicate and visit and participate in familial activities on 
both sides of the border where most of our families reside.
    So it is going to really serve as a--this wall will really 
serve as a detriment to our livelihood in many ways, not only 
just the detriment to our ability to access services that we 
deliver to members of our citizens, but also for the ability 
for our people to participate in ceremonial activities, to be 
able to visit their families that are in Mexico and vice versa, 
to be able to participate in and visit families that are buried 
on both sides of the border.
    So this is going to be a detriment in their ability to be 
able to do that, that part of their livelihood for as long as 
this border wall exists. It is going to require most of our 
families, if they are going to come into the United States, or 
if we are going to Mexico to provide these services, to have to 
be--use one of the ports of entries to be able to do that. Many 
of our people do not have the ability, do not have the 
resource, do not have the vehicles necessary to travel to take 
themselves to these different areas to be able to come in or to 
be able to get back into Mexico.
    Right now, we have that ability to do that. This wall will 
make it very difficult, if impossible, for us to be able to do 
that.
    Mr. Thompson. So my understanding is that there has been no 
substantive conversation with Federal authorities about the 
adverse impact of what the wall would do for the people you 
represent?
    Mr. Norris. Mr. Chairman, we have raised these concerns 
numerous times, numerous times to Federal folks on the impacts 
that this border wall will have on our people. We have asked 
for consultation, true government-to-government consultation on 
this issue. We have not been given that opportunity to sit as a 
Tribal government with the U.S. Government to have this 
conversation and to be able to offer some resolution to some of 
these concerns that we have.
    We have offered some alternatives with respect to our 
sacred sites, with respect to our religious rites that are 
being desecrated as we speak today. We have offered some 
alternatives to be able to avoid those areas to protect our 
ancestors, to protect the ancestral graves that we know exist 
today in those areas. Those requests, those alternatives, those 
issues that we offered as an alternative have been totally 
ignored.
    We have put these recommendations in a letter form to the 
Department of Homeland Security back in November. I received a 
response in January, early January to that letter. They totally 
ignored, totally just set aside all the recommendations that we 
offered to protect our ancestral lands, to protect our 
ancestors, the graves that we know are within the footprint of 
the building of this wall.
    Mr. Thompson. Thank you very much, Chief.
    You know, private property rights are one of those real 
sacred rights that as Americans, historically, we have 
cherished. The notion that if through the sweat of my brow, I 
am able to acquire property, that within reason there is no way 
I should fear my Government from taking my property. The facts 
about it, I have heard my Republican colleagues make that 
argument for private property rights more so than I have heard 
Democrats. But all those laws have been on the books for quite 
a while.
    I guess, Mr. Chilton, you have had a significant investment 
in property. The area you showed on the map about the trail and 
the other thing, was that on your property?
    Mr. Chilton. I have Federal leases from the Forest Service, 
and the southern border of my ranch, 5 miles is owned by the 
Federal Government.
    Mr. Thompson. So--and that is the point I am trying to 
make. You showed us some pictures of an area, which obviously 
is of concern. But in terms of the focus of this hearing, would 
the fact that unless that was brought out, the assumption was 
that that was your land. I am just, I want to make sure that 
the record reflects that the pictures included in this hearing 
was of land that you leased/owned by the Federal Government, 
which means they can do anything they want with it because they 
are the Federal Government.
    I want us to--if we are going to talk about private 
property rights, let's keep it in the private property rights 
arena. But we want to secure our Southern Border. I am just not 
sure that securing with a fence gets us what we want by doing 
away with all property rights.
    From my own standpoint again, Madam Chair, your own 
indulgence, your family has done well. But I think if somebody 
came to take your property and said, take it or leave it, you 
are going to fight them. I mean, I just--and you should. I am 
saying that by the fact that our Government waives all the 
rights and said, I am here to take your land, you can't do 
anything about it, you know, I am sure your relatives would 
turn over in their grave if that was the case. I hear this from 
the other witnesses that they want an opportunity to defend 
their property from--taken from the Federal Government. I think 
that is a fundamental principal of democracy in America that we 
should never take from anyone.
    Mr. Chilton. You are fundamentally right, except the 
Constitution allows for taking of property for public purposes. 
I think a wall is a public purpose. In terms of property rights 
on my land, my ranch, I have private land too. If the 
Government secured the border at the border, I wouldn't have 
these crossers packing drugs, these bad guys coming through my 
private land.
    Mr. Thompson. I don't have any question about that. But you 
would have your day in court, you would make sure that whatever 
the Government wanted to do, it had to follow the environmental 
standards, they would have to do environmental impact analysis 
to prove that what they are doing wouldn't substantially harm 
the land that they are taking. There is just some fundamental 
things that I know you would want assurance before that. I am 
saying by doing, the taking this program of private property 
rights from individuals, we have just walked away from all of 
that. I am just convinced that as Americans we are better than 
that.
    Thank you, Madam Chair.
    Miss Rice. Thank you, Mr. Chairman.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Chilton, I see that you are a fifth-generation rancher, 
that your family has been in the cattle business for 130 years.
    Mr. Chilton. In Arizona, yes.
    Mr. Guest. In Arizona. That the land that you currently own 
and in some cases lease sits on the international border with 
the United States and Mexico. On page 3 of the written 
documents you provided, at the top is a photograph. The photo 
which you referenced earlier shows the international boundary 
and what it looks like on the southern end of your ranch.
    Could you please explain the structure that separates the 
United States from Mexico there on the property that you work 
each and every day?
    Mr. Chilton. Yes. Bottom line, it is a four-strand barbed 
wire cattle fence.
    Mr. Guest. How difficult is it to cross the border along 
that portion of our Southwest Border?
    Mr. Chilton. Anyone can crawl under it, go through it, or 
climb over it.
    Mr. Guest. A matter of fact, you demonstrated that by a 
photograph on page 4 that actually shows you being able to 
crawl under it. So there really is no deterrent. Is that 
correct?
    Mr. Chilton. That is correct. The Border Patrol is 20 miles 
inside the United States. They are not there. I took Senator 
McSally from my ranch down to the border and back, and we never 
saw a single Border Patrol agent.
    Mr. Guest. So would you agree with my statement that at 
least along your section of the Southwest Border, that our 
current structure offers, No. 1, no protection, and No. 2, that 
our current border structure where your property butts into 
Mexico is not an obstacle at all to illegal entry?
    Mr. Chilton. I didn't quite hear the last part of your 
question.
    Mr. Guest. Does our current border structure along your 
property, does that offer you or your family any protection 
against illegal immigrants coming into our country?
    Mr. Chilton. Absolutely no.
    Mr. Guest. Does our current border structure, again, along 
your property, does it offer any obstacles to people who want 
to come into our country?
    Mr. Chilton. None whatsoever.
    Mr. Guest. Then there were some videos that we saw earlier 
in your testimony. There were actually numerous videos, and in 
those videos we saw large groups of individuals. Those 
individuals were coming across your property, were they not?
    Mr. Chilton. They are. I have over a thousand images of 
people coming across our property. They are mainly drug packers 
or people trying to get into the United States who can't go 
through the asylum process.
    Mr. Guest. I believe you testified earlier that those were 
drug smugglers. Many of those were gang members, including MS-
13. Many of those were people who had previously been deported 
and were making illegal reentry back into the country. Is that 
right?
    Mr. Chilton. It is absolutely true.
    Mr. Guest. Now, let me ask you, Mr. Chilton, what impact 
has our inability to secure the border with this very 
ineffective 4 strands of barbed wire, what impact has that had 
on you financially or emotionally?
    Mr. Chilton. Emotionally, it is particularly significant 
for my wife and others. Financially, it means that instead of 1 
cowboy going out to check our cattle or fence, we have to have 
2 cowboys go, because it is just unsafe with foreigners coming 
through our ranch and cutting our fences. They cut our fences 
and our cattle get out into other pastures, and it takes me 2 
days, maybe 3, just to find them and get them back in the 
correct pasture.
    We have had water systems drained. Financially, it is a 
huge impact that other ranchers don't have to face.
    Mr. Guest. The illegal crossing across your property, would 
that be events that occur on a daily basis?
    Mr. Chilton. Since the property is so large, I can't say it 
is on a daily basis. However, an acquaintance of mine flew a 
drone over into Mexico and found a huge layup site on the other 
side of a mountain, and he dropped a note saying he would offer 
a beer if they came down. Well, the next day, I was down there, 
and here comes guys with masks and camouflage and they wanted 
beer. I only had Cokes. I told this acquaintance and he rushed 
out there the next day and gave them beer, and he got 
interesting intelligence information. They said that they 
worked for the cartel, that the cartel was running two groups 
through one major canyon on my ranch a day.
    Mr. Guest. Mr. Chilton, let me ask you one question, and my 
time will have expired. Was there an incident on your property 
where there was a Border Patrol agent who was shot by an 
illegal immigrant?
    Mr. Chilton. There was, about a year ago, a Border Patrol 
agent shot. I am just glad it wasn't me.
    Mr. Guest. Thank you, Madam Chairman. I yield back.
    Miss Rice. Thank you, Mr. Guest.
    The Chair now recognizes for 5 minutes the gentleman from 
Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you for having 
this hearing today.
    Mr. Chilton, thank you for coming before this committee and 
sharing your story, your personal story and experience along 
the border. I was part of a Congressional delegation on a trip 
to Yuma, Arizona. I must say, I couldn't agree with you more on 
what your assessment of the crisis is.
    You started, in your testimony, by making a very 
interesting analogy. You said, would a football team ever win 
if the team lined up 10 yards behind the line of scrimmage? I 
am going to continue with that analogy in this line of 
questioning.
    While I witnessed first-hand the lack of a secure border in 
areas along the Colorado River which allows the cartels to 
smuggle drugs into our country, cartel members who you 
personally have witnessed crossing your land, it is so critical 
that we must act decisively to address this crisis. Could you 
please elaborate on what steps we must take, in your opinion, 
to secure our border, to protect our citizens like you, and 
your neighbors, to stop lining up 10 yards behind the line of 
scrimmage?
    Mr. Chilton. It is really very simple. I am just a cowboy. 
But you have a fence, you have roads, forward operation bases, 
and 24/7 visual observation of the border. Anybody climbs over 
the fence, I don't care how high it is, you apprehend them as 
they are coming down. It is a very simple solution. We need the 
personnel at the border, a wall, and roads.
    Mr. Joyce. Mr. Chilton, you described for us, and I am 
going to ask you to repeat the description of what type of 
barrier exists on the ranch that you currently use on the 
cattle that are protected. Would you please describe for me 
what that security exists between Mexico and United States 
today?
    Mr. Chilton. It is just simply a four-strand barbed wire 
cattle fence, and it isn't maintained by the Federal 
Government. I have to maintain it.
    Mr. Joyce. How easy is it to go over, to go under, or to go 
through that 4 simple lines of barbed wire?
    Mr. Chilton. I am 80 years old, and I can climb over it, I 
can go under it, and I can go through it. Anybody can.
    Mr. Joyce. Mr. Chilton, as a citizen who lives on the 
United States-Mexico border, do you personally support building 
a wall?
    Mr. Chilton. I absolutely support it because it is a very 
simple solution, and the Federal Government is supposed to 
protect me from foreign people coming through my ranch. We have 
seen groups with armed people coming through with what appears 
to be AK-47s.
    Mr. Joyce. Mr. Chilton, do you as a citizen believe that 
Congress should appropriate funds to build this wall?
    Mr. Chilton. I agree they should. Senator Schumer, 
Congresswoman Pelosi all voted to do this under the secure 
voters--Secure Border Act. It needs to be done, and it 
shouldn't be a partisan issue. This should be, what does it 
take to secure America and prevent people coming in unlawfully?
    Mr. Joyce. Mr. Chilton, you personally have witnessed gang 
members carrying what are assumed to be large amount of drugs 
that come into our country that affect every community 
throughout the United States. Do you feel that the drug crisis 
that we face and that we see in our districts, not just in 
Arizona, but in every district in America can be substantially 
impacted with the construction of a border wall?
    Mr. Chilton. Yes, I do. The opioid crisis is really an 
emergency facing America, all across America. If they could 
just limit the drugs coming through my ranch, that would help. 
We need to secure the border at the border, and that includes 
the drugs coming across.
    Mr. Joyce. Mr. Chilton, thank you for being here today. 
Thank you for your expert testimony in what we need to 
understand and how a border wall will protect America. Thank 
you.
    I yield back my time.
    Miss Rice. Thank you, Mr. Joyce.
    Ms. Alvarez, I have a quick question for you. Have you had 
more negative encounters with bad actors crossing the border or 
with Government officials?
    Ms. Alvarez. I have had more encounters with Government 
officials, with archaeological surveyors, regular surveyors. I 
go to work and these people jump my fences and go in without 
permission.
    Going back to Government workers, I don't need a fence 
behind my backyard. At night, what do I get? I get Border 
Patrol jumping fences in full gear with AR-15s, night vision, 
walking all over the property. So what do I need a fence for if 
I have these people going all over my property protecting me? 
As it is, there is a natural barrier in back of my home, which 
is a river. I don't need no wall. If somebody wants a wall, I 
am willing to give up my part of the wall and it can be built 
somewhere else, but I don't want it. We do not need this wall.
    Miss Rice. Thank you.
    I now recognize for 5 minutes the gentleman from 
Mississippi, Chairman Thompson.
    Mr. Thompson. Thank you very much, Madam Chair.
    I want our witnesses to understand we all want to be safe, 
but you can be safe by being smart. If we are the most 
technologically-advanced country in the world, but we are going 
to go back to the most primitive method of protection, which is 
a fence, that is saying that we need to change our modus of 
operation on a lot of things.
    I am absolutely convinced that if we can see people coming 
to the border, we have enough air assets, we have enough ground 
assets, we can move to those areas. We can see people at night. 
We can hear them talking. We have all the sophisticated 
technology we need. A fence is not going to stop them. So--but 
in the pursuit of this fence, I am concerned that we are taking 
private property from individuals who, at a minimum, ought to 
have the full faith and credit of Congress who established the 
laws by which you take. Just because you are the Government is 
no reason for me to say I can take your land because I want to 
build a wall. You have to prove that this is the only way you 
can protect my land and me.
    For the arguments that I hear from my colleagues who are 
gone at this hearing, I am absolutely blown away. We are a 
Nation of laws. To try to take somebody's land under the guise 
at first that you said Mexico was going to pay for it and now 
our hardworking taxpayers are going to have to pay for it is 
not where we need to be.
    Again, now they are saying, after we take your land and 
build a wall, we are going to put cameras and lights on top of 
the fence. Well, you can put cameras and lights on a pole, and 
you don't have to build a fence and you are going to see the 
same thing. So the notion that we are, as a Government, 
promoting a flawed security apparatus at the expense of 
taxpayers is something that is absolutely not in our best 
interest.
    But, Madam Chair, let me thank you for having the 
witnesses. Let me thank the witnesses for their testimony. All 
of us want to keep our country safe.
    You know, we are a Nation of immigrants. You know, this 
notion that somehow foreigners are trying to invade our 
country, I personally have a problem with the statement. Most 
of the people who come here are just, based on the documents 
that we are provided by Homeland Security, are just trying to 
find a better way of life. Most of them who come and work here 
send most of their money back home to family and others just 
for survival. So--and most of the people we catch who come here 
illegally come through our ports of entry. They don't walk 
through the desert. They come through our ports of entry.
    So if we look at the facts and run the numbers, the border 
wall and the taking of private property is not the best way to 
go.
    With that, Madam Chair, I yield back.
    Miss Rice. Thank you, Mr. Chairman.
    I thank the witnesses for their valuable testimony and the 
Members for their questions.
    I ask unanimous consent to enter 2 statements into the 
record. The first is a statement signed by 21 national faith-
based organizations offering their support for this hearing, as 
well as H.R. 1232, the Rescinding DHS' Waiver Authority for 
Border Wall Act, and other similar legislation intended to 
protect landowner and border communities' rights. The second is 
a statement from the Southern Border Communities Coalition 
describing the negative impact border wall construction is 
having on communities along the U.S.-Mexico border, and how 
almost 60 percent of registered voters in California, Arizona, 
New Mexico, and Texas oppose any additional funding for border 
wall.
    [The information follows:]
           Letter From Miscellaneous Fath-Based Organizations
                           February 27, 2020
    The undersigned faith organizations appreciate the opportunity to 
submit a statement for today's hearing.
    Our faith communities have ministries and relationships deeply 
rooted in border communities. We have witnessed how current border 
enforcement policies have torn families and communities apart, 
contributed to the deaths of thousands of migrants, harmed wildlife and 
border ecosystems, and violated the rights and humanity of U.S. 
citizens and immigrants alike. Border walls and other forms of 
excessive militarization are inconsistent with the faith principles of 
compassion, stewardship, and justice. The rampant use of waivers and 
eminent domain to further border wall construction harms human 
communities and wildlife, and interferes with the sovereignty of 
indigenous communities in the border region.
    Sacred sites at Organ Pipe Cactus National Monument are already 
being destroyed. Earlier this month, blasting began at Monument Hill, 
an area once used for Tribal ceremonies and where the bodies of Apache 
and other indigenous peoples are buried. Human remains have been found 
at Monument Hill and near Quitobaquito Springs, another sacred area. 
``Look at the reaction when Notre Dame burned down,'' said Chairman Ned 
Norris Jr. of the Tohono O'odham nation. ``You feel an emotional 
connection to that, even if you're not Catholic. That kind of emotional 
connection is abundant in the case of the border issues for the Tohono 
O'odham.''\1\ We stand with our sisters and brothers of the Tohono 
O'odham nation in lamenting and condemning the indiscriminate 
destruction of their sacred sites and burial grounds.
---------------------------------------------------------------------------
    \1\ Native American tribe says Pentagon failed to consult on border 
wall construction, NBC News, nbcnews.com/news/us-news/native-american-
tribe-says-pentagon-failed-consult-border-wall-construction-n1137771, 
(February 17, 2020).
---------------------------------------------------------------------------
    Border wall construction in the southwest desert will require 
millions of gallons of precious groundwater for concrete footings. 
Quitobaquito Springs is the only reliable source of surface water for 
50 miles in any direction and home to endangered species that are found 
nowhere else on Earth. Near the San Bernardino National Wildlife Refuge 
in Arizona, a restored wetlands that depends on artisan springs of 
ancient fossil water dating back 5,000 to 40,000 years, an aquifer is 
being pumped at a rate of hundreds of thousands of gallons per day for 
border wall construction. Four of the refuge wetlands are drying up. 
Due to the ancient nature of this water, rainfall will not recharge the 
aquifer.\2\
---------------------------------------------------------------------------
    \2\ Border Wall Construction Advancing at Peril of the Southwest, 
Sierra Club, sierraclub.org/press-releases/2020/01/memo-new-border-
wall-construction-advancing-peril-southwest, (January 29, 2020).
---------------------------------------------------------------------------
    Due to their long-lasting negative impact on communities and 
wildlife in the border region, like in the examples above, faith 
communities have deep concerns regarding the use of the waiver 
authority and eminent domain.
    We ask Congress to support three bills that would restore the rule 
of law and mitigate the profound harms of border wall construction on 
border communities, sacred lands, groundwater depletion, property 
owners, the environment and wildlife:
  <bullet> H.R. 1232, the ``Rescinding DHS' Waiver Authority for Border 
        Wall Act''
  <bullet> H.R. 1233, the ``Borderlands Taking Defense Fund Act''
  <bullet> H.R. 1234, the ``Preventing the Taking of Americans' Land to 
        Build Trump's Wall Act''.
    The ``Rescinding DHS' Waiver Authority for Border Wall Act,'' H.R. 
1232, would preserve bedrock protections such as the Religious Freedom 
Restoration Act, American Indian Religious Freedom Act, Clean Air Act, 
Safe Drinking Water Act, and the Endangered Species Act. Currently, 
dozens of important laws that represent years of responsible lawmaking 
are being waived by the Secretary of the Department of Homeland 
Security in order to speed construction of roads and barriers along the 
U.S.-Mexico border. This waiver authority has been characterized by the 
Congressional Research Service as ``the largest waiver of law in 
American history.''\3\ H.R. 1232 would ensure that construction of 
border walls, fences, and other structures would abide by laws that 
protect religious freedom, human health, indigenous communities, and 
the environment.
---------------------------------------------------------------------------
    \3\ Memorandum from Stephen R. Vina & Todd Tatelman, Legislative 
Attorneys, Am. Law Division, Cong. Research Serv., on Section 102 of 
H.R. 418, Waiver of Laws Necessary for Improvement of Barriers at 
Borders, (Feb. 9, 2005).
---------------------------------------------------------------------------
    The ``Borderlands Takings Defense Fund Act'', H.R. 1233, would 
establish a fund to assist low-income property owners who are at risk 
of losing homes, ranches, and farms due to border wall construction. 
Funds could be used to educate property owners about the eminent domain 
process, including their rights to legal support, and to assist those 
facing condemnation.
    The ``Preventing the Taking of Americans' Land to Build Trump's 
Wall Act'', H.R. 1234, would prevent the Federal Government from taking 
property before landowners are fairly compensated. Presently, the 
Federal Government can seize land along the border, erect barriers 
immediately, and then take years to properly compensate land owners. 
The common-sense approach in H.R. 1234 would ensure that property 
owners are paid before land is taken.
    Government policies should uphold the dignity and worth of every 
person, protect creation, and advance the common good. Allowing DHS to 
waive dozens of bedrock protections and to trample on the rights of 
landowners falls far short of these values. We urge you to support and 
cosponsor H.R. 1232, H.R. 1233, and H.R. 1234.
            Sincerely,
                       African American Ministers in Action
                                       Church World Service
                  Columban Center for Advocacy and Outreach
                       Conference of Major Superiors of Men
Congregation of Our Lady Charity of the Good Shepherd, U.S. 
                                                  Provinces
                                Creation Justice Ministries
                                           Faithful America
                                  Franciscan Action Network
                  Friends Committee on National Legislation
                   Leadership Conference of Women Religious
                   Lutheran Immigration and Refugee Service
                       Maryknoll Office for Global Concerns
         Mennonite Central Committee U.S. Washington Office
       National Advocacy Center of the Sisters of the Good 
                                                   Shepherd
                           National Council of Jewish Women
                  NETWORK Lobby for Catholic Social Justice
   Sisters of Mercy of the Americas--Institute Justice Team
                 T'ruah: The Rabbinic Call for Human Rights
  The United Methodist Church--General Board of Church and 
                                                    Society
                  Unitarian Universalist Ministry for Earth
                 Unitarian Universalists for Social Justice
                                 ______
                                 
 Statement of Vicki B. Gaubeca, Director, and Jennifer Johnson, Border 
         Policy Advisor, Southern Border Communities Coalition
                             Feb. 27, 2020
                              introduction
    Formed in 2011, the Southern Border Communities Coalition (SBCC), a 
project of Alliance San Diego, brings together networks from San Diego, 
California, to Brownsville, Texas, to ensure that border enforcement 
policies and practices are accountable and fair, respect human dignity 
and human rights, and prevent the loss of life in the region.
    As the administration continues to deploy a record level of 
enforcement resources to the Southern Border region, including 
unaccountable agents, active-duty military troops and National Guard, 
surveillance and military technologies befitting theaters of war, 
border communities suffer as these deployments and programs jeopardize 
their human and civil rights, cause irreparable harm to the surrounding 
environment and wildlife, and erode quality of life and public safety. 
This escalated militarization comes with little to no accountability 
and oversight, which leads to increased abuse and impunity at Customs 
and Border Protection (CBP), ultimately undermining the safety of 
border communities and the Nation.
    The administration has also developed and implemented increasingly 
reckless and harmful policies that have intensified the suffering 
experienced by refugees at our Southern Border. Asylum seekers are 
returned to often dangerous and untenable situations in Mexico to await 
their immigration hearings or are subjected to an intensely rushed 
process where they are denied meaningful access to protection. Other 
cruel deterrence practices include blocking entry at southern ports of 
entry by engaging in ``metering'' or ``wait-listing'' for people 
seeking safety; ripping children away from the arms of parents so 
parents can be prosecuted; holding refugees in unsanitary, overcrowded 
holding cages that are more akin to dog kennels; and threatening to 
deport millions of people without regard to the harm it will cause to 
families and entire communities.
    Of deep concern to border communities is the administration's 
persistent and dangerous obsession with building a border wall by any 
means possible and with complete disregard to the profound and 
irreparable harms of the border wall on the borderlands, in part 
demonstrated by the administration's repeated waiver of bedrock laws 
established by Congress to protect public health, the environment, 
wildlife, cultural/religious landmarks, and the U.S. taxpayer to 
expedite wall construction.
    While the subcommittee is carrying out this important hearing, the 
administration is actively causing devastation to the borderlands and 
Southern Border communities--blasting away sacred burial sites, 
bulldozing precious natural resources, and tearing land away from 
private landowners and ranchers to build an ineffective and lethal 
border wall.
    SBCC submits this statement to provide the subcommittee with an 
analysis that includes the perspectives of borderland residents on how 
the administration policies and practices have damaged the quality of 
life and eroded the civil rights of the more than 15 million people who 
call the Southern Border region home.
   status of border wall construction, transfers, waivers, and costs
    According to U.S. Customs and Border Protection (CBP),\1\ as of 
Jan. 24, 2019, there were 655 miles of primary barriers on the 
Southwest Border, which included about 301 miles of pedestrian fencing 
and about 254 miles of vehicle barriers built before January 2017. 
About 99 miles of these primary barriers are new barriers built in 
place of dilapidated ones (i.e., replacement walls) and approximately 1 
mile of new border wall built in locations where no barriers previously 
existed. An additional 10 miles of new ``secondary'' border wall system 
have also been built since January 2017, bringing the total to 110 
miles.
---------------------------------------------------------------------------
    \1\ Customs and Border Protection. ``CBP/USACE Border Wall Status'' 
(Jan. 24, 2020). Available at: https://cdn.factcheck.org/UploadedFiles/
CBP-Border-Wall-Status-Paper_as-of-01242020-FINAL.pdf.
---------------------------------------------------------------------------
    The 115th and 116th Congress have appropriated a total of nearly 
$5.1 billion in fiscal years 2017, 2018, 2019, and 2020 to fund the 
construction of approximately 272 miles of new and replacement barriers 
along the Southern Border. In addition to these funds appropriated by 
Congress, the administration has gone to unprecedented lengths to 
unlawfully raid other agencies to access billions beyond what Congress 
has appropriated for the construction of more border wall.
    In Feb. 2019, following the longest Government shutdown in history 
and Congress's rejection of President Trump's full funding request for 
more border wall in the fiscal year 2019 appropriations bill, the 
administration brazenly declared in a press conference a dubious 
``National emergency'' (and has blatantly admitted this as a mechanism 
to circumvent Congress) to divert $3.6 billion from the Department of 
Defense's (DoD's) 10 U.S.C.  2808 Military Construction funds 
(effectively halting 127 military construction projects)\2\ and $2.5 
billion from 10 U.S.C.  284 Counter-Narcotics funding to construct 
another 304 miles of new or replacement barriers. The administration 
also tapped into another $600 million from the U.S. Treasury Forfeiture 
Fund. Both U.S. Congressional chambers have voted and passed 
resolutions of disapproval against the administration's declaration of 
a National emergency, but--to date--have failed to obtain a veto-proof 
majority.
---------------------------------------------------------------------------
    \2\ Sisk, Richard. ``Pentagon Releases List of Military 
Construction Projects Paused to Fund Border Wall'', Military.com (Sept. 
4, 2019) Available at: https://www.military.com/daily-news/2019/09/04/
pentagon-releases-list-military-construction-projects-paused-fund-
border-wall.html.
---------------------------------------------------------------------------
    In mid-January 2020, the administration indicated its intent to 
circumvent Congress again and transfer $7.2 billion from DoD funding, 
including $3.7 billion from military construction and $3.5 billion from 
counter-narcotics funding, to build more border wall. On Feb. 13, 2020, 
the administration notified Congress that it intends to transfer $3.8 
billion of DoD funds to erect another 177 miles of border barriers. 
These funds were originally appropriated by Congress in the fiscal year 
2020 budget to purchase new military aircraft, vehicles, and weapons.
    The administration has also requested another $2 billion \3\ \4\ to 
build another 82 miles of border wall in the fiscal year 2021 budget.
---------------------------------------------------------------------------
    \3\ Kanno-Youngs, Zolan. ``What's in President Trump's Fiscal 2021 
Budget? Steep cuts to domestic programs and more resources for the 
military and policing the border with Mexico.'' New York Times (Feb. 
10, 2020) Available at: https://www.nytimes.com/2020/02/10/business/
economy/trump-budget-explained-facts.html.
    \4\ DHS Fiscal Year 2021 Budget in Brief, Available here: https://
www.dhs.gov/sites/default/files/publications/
fy_2021_dhs_bib_web_version.pdf.
---------------------------------------------------------------------------
    Influenced by Presidential election year politics, the 
administration is eager and determined to fulfill an uninformed and 
costly campaign promise to build a border wall. Of course, we must 
recall that candidate Trump promised that Mexico would pay for the cost 
of its construction, not the U.S. taxpayer. Instead, he is devastating 
the border region by constructing a harmful, vanity wall bankrolled by 
the American taxpayer and circumventing Congress by seizing funds 
outside the appropriations process.
    Thus far, the price tag for this administration's border wall is 
more than $11 billion--or nearly $20 million a mile--and growing. It is 
the most expensive wall of its kind anywhere in the world.\5\
---------------------------------------------------------------------------
    \5\ Burnett, John. ``$11 Billion And Counting: Trump's Border Wall 
Would Be The World's Most Costly,'' NPR (Jan. 19, 2020) Available at: 
https://www.npr.org/2020/01/19/797319968/-11-billion-and-counting-
trumps-border-wall-would-be-the-world-s-most-costly.
---------------------------------------------------------------------------
    Ultimately the costs of building this wall will be exorbitant. In 
2018, the Government Accountability Office issued a report \6\ that 
suggested that there is no way to verify wall construction costs 
because estimates do not not fully account for varied, and sometimes 
extreme, terrain along the borderlands, and how this could play a role 
in costs. A minority report \7\ by the Senate Committee on Homeland 
Security and Governmental Affairs suggested the costs of building 
Trump's border wall could rise up to almost $70 billion, or more than 
$200 for every man, woman, and child living in the United States.
---------------------------------------------------------------------------
    \6\ GAO. ``SOUTHWEST BORDER SECURITY. CBP Is Evaluating Designs and 
Locations for Border Barriers but Is Proceeding Without Key 
Information'' July 2018 Highlights of GAO-18-614, a report to 
Congressional requesters. Available at: https://www.gao.gov/assets/700/
693488.pdf.
    \7\ HSGAC Minority Report. ``Southern Border Wall: Soaring Cost 
Estimates and Lack of Planning Raise Fundamental Questions About 
Administration's Key Domestic Priority.'' (April 18, 2017 ). Available 
at: https://www.hsgac.senate.gov/imo/media/doc/Southern%20Border%- 
20Wall%20%20HSGAC%20Minority%20Report.pdf.
---------------------------------------------------------------------------
    Walls also cost billions of taxpayer dollars to maintain. No 
physical structure is immune to natural wear and tear caused by 
exposure to the elements over the years. The same minority report 
referred to above also estimated that maintenance costs, based on 
current costs of maintaining the wall, could reach $150 million a 
year--that's billions of more dollars needed that our children will 
have to pay for. This figure does not include the costs for repairing 
walls that have been breached or damaged by other causes.
    To facilitate the construction of the wall at the expense of border 
community members, the environment, and wildlife, the administration 
continues to interpret the Real ID Act as giving the Department of 
Homeland Security complete and unhindered discretion in waiving any 
U.S. laws that might interfere with the construction of border wall. As 
a result, almost 50 laws that were passed by Congress to protect the 
public from Government overreach and protect our water, air, 
environment and rights have been waived, including the Native American 
Graves Protection and Repatriation Act, the American Indian Religious 
Freedom Act, the Religious Freedom Restoration Act, the National 
Environmental Protection Act, the Endangered Species Act, the Clean Air 
Act, and the Safe Drinking Water Act.
    To further speed up the construction of the border wall in Arizona, 
California, New Mexico, and Texas, the administration recently waived 
Federal procurement statutes and regulations,\8\ including requirements 
for open competition and justifying selections.\9\
---------------------------------------------------------------------------
    \8\ Spagat, Elliot. ``Homeland Security waives contracting laws for 
border wall,'' Associated Press (Feb. 18, 2020). Available at: https://
apnews.com/1689fa48a2e177d1f397b95ff0cb97db.
    \9\ Statutes and regulations include: 10 U.S.C.  2304; 10 U.S.C.  
2304c; 10 U.S.C.  2306a; 10 U.S.C.  2305(a)-(c), (e)-(f); Section 813 
of Public Law 114-328, as amended by Section 822 of Public Law 115-91; 
15 U.S.C.  657q; 48 C.F.R.  17.205; 48 C.F.R.  17.207; 10 U.S.C.  
2305a(b)-(e); 48 C.F.R.  22.404-5; and 48 C.F.R.  28.102-1(c).
---------------------------------------------------------------------------
                           border wall harms
    The consequences and harms of building border walls have been 
profound to border communities, the environment and wildlife. Since 
1994, when the first wall was built near San Diego under Border 
Patrol's Operation Gatekeeper, the remains of more than 7,800 migrants 
have been found in remote areas of the Southern Border, including on 
the Tohono O'odham Nation and in rural areas near Falfurrias, Texas. 
However, not all remains are found, and experts estimate that this 
number reflects only a third of the estimated migrants who lost their 
lives attempting to cross the border.
    Border walls jeopardize Tribal sovereignty. The Tohono O'odham 
Nation, whose ancestral lands straddle the U.S.-Mexico border, already 
have a physical barrier with a gate bisecting their nation. Most Tribal 
members oppose replacing this physical structure \10\ with a wall, 
because it would interfere with their ability to cross into Mexico to 
connect with other Tribal members for sacred ceremonies and visits.
---------------------------------------------------------------------------
    \10\ Nanez, Dianna M. ``The Wall: A border tribe, and the wall that 
will divide it'', USA Today. Available at: https://www.usatoday.com/
border-wall/story/tohono-oodham-nation-arizona-tribe/582487001/.
---------------------------------------------------------------------------
    As noted by Ned Norris, Jr. , Chairman of the Tohono O'odham 
Nation, ``A wall is extremely expensive for the American taxpayer, is 
ineffective in remote geographic areas like ours, and is highly 
destructive to the religious, cultural, and environmental resources on 
which our members rely and which make our ancestral lands sacred to our 
people. On-going construction of the wall already has and will continue 
to disturb and destroy culturally significant sites and cultural 
resources, Tribal archeological resources, and sacred sites and 
desecrate human remains.''\11\
---------------------------------------------------------------------------
    \11\ The Tohono O'odham Nation of Arizona Testimony of The 
Honorable Ned Norris, Jr., to the U.S. House of Representatives 
Committee on Natural Resources, Subcommittee for Indigenous Peoples of 
the United States, Hearing on Destroying Sacred Sites and Erasing 
Tribal Culture: The Trump Administration's Construction of the Border 
Wall (Feb. 26, 2020) Available at: https://naturalresources.house.gov/
imo/media/doc/SCIP%2002.26%20%20Chairman%20Nor- ris.pdf.
---------------------------------------------------------------------------
    Current and proposed land seizures for border wall construction 
have deeply harmed property owners on the U.S. side of the border. In 
Texas, the vast majority of land adjacent to the border is privately-
owned, so the administration has resorted to condemnation lawsuits 
against private landowners in many of the poorest communities in the 
United States to take land for the border wall by force. Hundreds of 
private property owners have been forced to give up their homes, 
businesses, farms, and ranches--some of whom have held these lands in 
their families for generations--through eminent domain seizures.
    In some cases, DHS has used `quick take' condemnations to take 
possession of private property and start wall construction even before 
just compensation has been determined and the property owner paid. In 
case after case, DHS has completely discounted the hardships that the 
border wall will bring to these landowners, to include: (1) The 
devaluation of contiguous property and land left after the taking, (2) 
problems accessing land and homes behind a 30-foot wall built on top of 
a levee, and (3) the effects on livelihood as the result of a wall 
interfering with farming, ranching, and maintaining renters.
    Any kind of physical barrier at the U.S.-Mexico border also 
interferes with the migration patterns and access to food and water of 
wildlife--many of which are endangered and protected species, like the 
Mexican grey wolf, ocelot, bighorn sheep, and jaguar. More than 2,500 
scientists from 43 countries signed on to a study that illustrates the 
harm to wildlife \12\ and the environment that would be generated by 
this administration's border wall. Even birds will be affected, like 
the cactus ferruginous pygmy owl \13\ which cannot fly higher than 4.5 
feet and would be unable to clear Trump's proposed 18- to 30-foot wall. 
Every day now, we witness more miles of border walls built every day, 
laying waste to our environment and placing our endangered and 
protected species on a runaway train toward extinction.
---------------------------------------------------------------------------
    \12\ Javorsky, Nicole. ``Scientists Decry the Border Wall's Harm to 
Wildlife,'' City Lab (July 24, 2018). Available at: https://
www.citylab.com/environment/2018/07/scientists-decry-the-border-walls-
harm-to-wildlife/565913/.
    \13\ Knowles, Cybele. ``5 Animals Threatened by the Border Wall,'' 
Medium (Feb. 22, 2017). Available at: https://medium.com/center-for-
biological-diversity/5-animals-threatened-by-the-border-wall-
3160a6bbfd85.
---------------------------------------------------------------------------
    Border walls and infrastructure have exacerbated flooding in 
Arizona and Texas, causing millions of dollars in damage to the 
environment and local businesses and endangering the lives \14\ of 
border residents and wildlife. In 2008, a year after a National Park 
Service report warned the DHS that the border wall would cause 
flooding, 2 people drowned in Nogales from flooding intensified by the 
wall along the Arizona/Sonora border.
---------------------------------------------------------------------------
    \14\ Sadasivam, Naveena. ``The U.S.-Mexico border wall's dangerous, 
costly side-effect: enormous floods,'' Quartz, (Aug. 17, 2018). 
Available at: https://qz.com/1353798/the-us-mexico-border-walls-
dangerous-costly-side-effect-enormous-floods/.
---------------------------------------------------------------------------
                     conclusion and recommendations
    Not only is the construction of a border wall costly and harmful, 
it is also not supported by a majority of voters, including communities 
directly impacted by the wall. A recent survey by the University of 
California Immigration Policy Center showed almost 60 percent of 
registered voters in California, Arizona, New Mexico, and Texas oppose 
any additional funding for border wall.
    The Southern Border region--home to about 15 million people--is a 
place of hope, encounter, and opportunity. It is one of the most 
vibrant and diverse places in the country with deep cross-border ties 
from San Diego, CA to Brownsville, Texas.
    But instead of embracing our dynamic communities, for decades our 
border policies have cast aside human rights, criminalized migrants, 
and engaged in deadly and unaccountable border enforcement, undermining 
public safety for all.
    It's time to rethink how we do border and push for a new vision 
\15\ that introduces a 21st Century border governance model that 
expands public safety to all, creates a welcoming system for newcomers 
and residents, and protects human rights and life.
---------------------------------------------------------------------------
    \15\ Southern Border Communities Coalition. ``A New Border Vision'' 
(May 2019) Available at: http://d3n8a8pro7vhmx.cloudfront.net/themes/
5c8a803c4764e89849b5753e/attachments/origi- nal/1557787799/SBCC-NBV-
H.pdf?1557787799.
---------------------------------------------------------------------------
    We urge this subcommittee to consider introducing a legislative 
initiative that would:
  <bullet> Rescind the vast and arbitrary powers seemingly granted to 
        the Department of Homeland Security to waive all legal 
        requirements to construct the border wall and related 
        infrastructure at the Southern Border.
  <bullet> Prohibit the administration's ability to transfer funds or 
        access resources for border wall construction in violation of 
        the appropriations process or Congressional intent.
  <bullet> Halt existing wall construction and terminate contracts 
        funded by illegally transferred and seized funds.
  <bullet> Hold this administration accountable for its failure to 
        comply with consultation requirements in border wall 
        construction efforts, including government-to-government 
        consultation with Tribal governments, and strengthen 
        consultation mechanisms.
  <bullet> Prohibit DHS from taking physical possession of any acquired 
        land unless and until all persons entitled to compensation for 
        such acquisition have been compensated in full, and the court 
        proceedings described in 40 U.S.C. Sec. 3114(a) have concluded 
        and the case terminated.
  <bullet> Identify and fund programs to address harms and provide 
        reparations for landowners, communities, and public and private 
        lands harmed by border wall construction.

    Miss Rice. Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the subcommittee record shall be kept 
open for 10 days.
    Again, I thank all the witnesses for coming here today.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
